1a
See Fed. Rule of Appellate Procedure 32.1 generally
governing citation of judicial decisions issued on or
after Jan. 1, 2007. See also U.S.Ct. of App. 9th Cir. Rule
36-3.
United States Court of Appeals, Ninth Circuit.
ESTATE OF Kevin BROWN, BY its successor in
interest Rebecca BROWN; Rebecca Brown, successor
in interest to the Estate of Kevin Brown, PlaintiffsAppellees,
v.
Michael LAMBERT, an individual; Maura J. MekenasParga, an individual, Defendants-Appellants.
No. 17-55930
Argued and Submitted November 8, 2018 Pasadena,
CaliforniaFILED July 24, 2019
Attorneys and Law Firms
Eugene G. Iredale, Grace Jun, Julia Yoo, Iredale and
Yoo, APC, San Diego, CA, for Plaintiffs - Appellees
Catherine Richardson, Attorney, San Diego City
Attorney's Office, San Diego, CA, for Defendants Appellants
Appeal from the United States District Court for the
Southern District of California, Dana M. Sabraw,
District Judge, Presiding, D.C. No. 3:15-cv-01583-DMSWVG
Before: RAWLINSON, MELLOY,* and HURWITZ,
Circuit Judges.

2a
MEMORANDUM

**

In this 42 U.S.C. § 1983 action, the successors of
Kevin Brown, a deceased crime laboratory analyst,
contend that two police officers illegally obtained and
executed a warrant to search Brown’s home in
connection with a murder investigation. As relevant to
this appeal, the operative complaint claims that Officer
Michael Lambert obtained the search warrant through
a deceptive affidavit, that Lambert and Officer Maura
Mekenas-Parga knowingly executed an overbroad
warrant, and that Officers Lambert and MekenasParga seized items beyond the scope of the warrant.
The district court denied the officers’ summary
judgment motion seeking qualified immunity, and this
interlocutory appeal followed. We affirm in part and
reverse in part.1
1. The district court properly found that Officer
Lambert is not entitled to qualified immunity on the
deception claim. The affidavit he submitted in support
of the application for the warrant accurately
represented that Brown’s DNA was found during the
crime laboratory’s review of the murder victim’s
vaginal swab. But, it inaccurately stated that
contamination was “not possible;” in fact, Lambert had
been expressly warned by crime laboratory employees
that contamination was likely because analysts at the
time of the murder often used their own semen as a
control when testing forensic evidence.
The district court found a genuine issue of
disputed fact existed whether Officer Lambert
deliberately or recklessly omitted this information from
the affidavit submitted in support of the issuance of the
warrant. Lambert claims that there is no such dispute,
but we cannot review the district court’s finding in this

3a
interlocutory appeal. See Eng v. Cooley, 552 F.3d 1062,
1067 (9th Cir. 2009) (“A district court’s determination
that the parties’ evidence presents genuine issues of
material fact is categorically unreviewable on
interlocutory appeal.”). Rather, “for purposes of
determining whether the alleged conduct violates
clearly established law of which a reasonable person
would have known, we assume the version of the
material facts asserted by the non-moving party to be
correct.” Schwenk v. Hartford, 204 F.3d 1187, 1195 (9th
Cir. 2000).
2. The issue properly before us on the deceptive
affidavit claim is whether “the affidavit, once corrected
and supplemented, would provide a magistrate with a
substantial basis for concluding that probable cause
existed.” United States v. Stanert, 762 F.2d 775, 782
(9th Cir. 1985). A corrected affidavit would have
informed the magistrate that the DNA evidence cited
was unreliable and most likely present because of the
testing regimen. Because probable cause to search
Brown’s home “depended entirely on the strength of
[that] evidence,” a corrected affidavit would not
support a finding of probable cause. Liston v. Cty. of
Riverside, 120 F.3d 965, 973–74 (9th Cir. 1997).
3. The district court also correctly determined
that Officer Lambert is not entitled to qualified
immunity on the claim for executing an overbroad
warrant. The warrant was overbroad to the extent it
authorized the seizure of “[a]ddress books,
diaries/journals, handwritten in nature” from Brown’s
home. See United States v. Spilotro, 800 F.2d 959, 963–
64 (9th Cir. 1986). *1001 And, because Officer Lambert
“prepared the invalid warrant, he may not argue that
he reasonably relied on the Magistrate’s assurance that
[it] contained an adequate description of the things to

4a
be seized.” Groh v. Ramirez, 540 U.S. 551, 564, 124 S.Ct.
1284, 157 L.Ed.2d 1068 (2004).
4. Officer Mekenas-Parga, however, is entitled to
qualified immunity on the overbroad warrant claim.
Because she did not assist in obtaining the warrant, she
was entitled to rely on it unless it was “so facially
overbroad as to preclude reasonable reliance.” United
States v. Luk, 859 F.2d 667, 678 (9th Cir. 1988). The
warrant’s overbreadth was not facially obvious. Cf.
United States v. Stubbs, 873 F.2d 210, 212 (9th Cir.
1989) (finding a warrant “contain[ing] no reference to
any criminal activity” and “describ[ing] broad classes of
documents” plainly defective on its face).
5. As to the overbroad seizure claim, the district
court correctly found neither officer entitled to
qualified immunity. The seizure of recipes, family photo
albums, and a note from Ronald and Nancy Reagan,
among other items, plainly exceed the warrant’s scope.
United States v. Tamura, 694 F.2d 591, 595 (9th Cir.
1982) (explaining that the “wholesale seizure for later
detailed examination of records not described in a
warrant” violates the Fourth Amendment).2
AFFIRMED IN PART AND REVERSED IN
PART.
Footnotes
*The Honorable Michael J. Melloy, United States
Circuit Judge for the U.S. Court of Appeals for the
Eighth Circuit, sitting by designation.
**This disposition is not appropriate for publication and
is not precedent except as provided by Ninth Circuit
Rule 36-3.

5a
1The plaintiffs also asserted a wrongful death claim
against Officer Lambert. The district court granted
qualified immunity to Officer Lambert on a claim
alleging wrongful retention of seized property.
2Because the wrongful death claim against Officer
Lambert arises from the same constitutional violations
as the other claims against him, the district court
properly denied summary judgment on that claim.

6a
United States District Court, S.D. California.
The ESTATE OF Kevin BROWN BY its successor in
interest Rebecca BROWN, and Rebecca Brown, an
individual, Plaintiffs,
v.
Michael LAMBERT, an individual, Maura MekenasParga, an individual, and Does 2-50, Defendants.
Case No.: 15-cv-1583-DMS (WVG)
Signed June 27, 2017
Attorneys and Law Firms
Eugene G. Iredale, Grace S. Jun, Julia Yoo, Iredale &
Yoo, APC, San Diego, CA, for Plaintiffs.
Keith W. Phillips, Catherine Ann Richardson, City of
San Diego City Attorney's Office, San Diego, CA, for
Defendants.
SECOND AMENDED ORDER (1) GRANTING IN
PART AND DENYING IN PART DEFENDANTS'
MOTION FOR SUMMARY JUDGMENT AND (2)
GRANTING IN PART AND DENYING IN PART
PLAINTIFFS'
MOTION
ON
FOR
PARTIAL
MOTI
SUMMARY JUDGMENT
Hon. Dana M. Sabraw, United States District Judge
This case stems from the 1984 murder of 14 year
old Claire Hough. Claire’s body was found in the early
morning hours at Torrey Pines State Beach. She had
been brutally beaten, strangled to death, and mutilated
with a knife. The case was reopened after having gone

7a
unsolved for decades. Through advancement in DNA
technology the San Diego Police Department (“SDPD”)
Crime Lab was able to perform further tests in 2012.
DNA from a convicted rapist, Ronald Tatro, was found
in blood from the victim’s clothing. In addition, a
combined sperm fraction taken from a vaginal swab
from the victim’s body revealed trace amounts of semen
from a second individual, Kevin Brown, who was a
former longtime employee of the Crime Lab and
employed by the Lab at the time of Claire’s murder.
Plaintiffs claim Brown’s DNA was present
through an obvious case of cross contamination, likely
due to now-outdated standards used in the Lab in the
1980s when swabs were air dried in the open and DNA
science was not developed. Plaintiffs point out that it
was common practice at that time for Lab employees to
use their own semen samples or samples from their
coworkers for testing reagents in the Lab and, as a
result, several Lab employees believed the positive hit
on Brown’s DNA was due to cross contamination.
Plaintiffs contend Defendant Michael Lambert obtained
a warrant to search Brown’s residence by
misrepresenting and omitting these and other material
facts in an affidavit submitted to a state judge in
support of the application for a search warrant.
Plaintiffs allege that after Defendants obtained the
warrant, they engaged in a dragnet search of Brown’s
home and put extreme pressure on an emotionally
fragile Brown, ultimately resulting in a number of
constitutional violations and Brown’s death by suicide.
Before the Court are Defendants' motion for
summary judgment and Plaintiffs' motion for partial
summary judgment. Defendants seek summary
judgment on each of Plaintiffs' claims, while Plaintiffs
seek partial summary judgment on two of their claims.

8a
The motions came on for hearing on April 21, 2017.
Eugene Iredale appeared and argued for Plaintiffs, and
Catherine Richardson appeared and argued for
Defendants.1
The Court issued its original Order on the
parties' motions on May 25, 2017. In that Order, the
Court denied Defendants' motion and granted in part
and denied in part Plaintiffs' motion. Specifically, the
Court granted Plaintiffs' motion on their third claim for
unlawful seizure beyond the scope of the warrant and
denied the motion on Plaintiffs' fourth claim.
Twelve days after the Order was issued,
Defendants filed a Notice of Interlocutory Appeal. The
following day, June 7, 2017, Plaintiffs filed an ex parte
motion to certify the appeal as frivolous. The Court
held a hearing on that motion on June 9, 2017, and at
that hearing set a further briefing schedule on the
motion. After those further briefs were submitted, the
Court held another hearing during which Defendants
agreed to withdraw their Notice of Appeal to allow the
Court to address the important issues raised in the
parties' supplemental briefs and discussed at the
hearings. This order addresses those issues.
I.
BACKGROUND
Following the discovery of Claire’s body, an
autopsy was conducted by a pathologist from the San
Diego County Coroner’s Office. The pathologist
concluded the cause of death was manual strangulation,
and noted a deep laceration to Claire’s throat, blunt
force injuries to her face, and stab wounds to her chest
and genitalia. Her entire left breast had been
amputated, and her mouth was filled with sand.

9a
Numerous items of evidence were collected from the
scene, many of which were stained with blood. (Pls.'
Opp'n to Defs.' Mot., Ex. 15, Evidence Screen at 3-4, 69.2) Other items of evidence were swabbed to detect the
presence of semen. (Id. at 3, 6.) Vaginal, anal and oral
swabs were also taken from the victim.3 (Id. at 1.) The
autopsy, which was performed the day after Claire’s
body was discovered, found “[n]o spermatozoa” on the
oral, anal and vaginal smears taken from the victim.
(Pls.' Opp'n to Defs.' Mot., Ex. 12 at 4.)
Following
the
initial
investigation,
no
eyewitnesses were identified, few leads were
developed, and Claire’s case went cold for nearly two
decades. The case was revisited several times by the
SDPD Cold Case Team. Finally, in 2012 a Detective
from the Cold Case Team submitted a lab request to
reexamine the physical evidence in the case with the
hope that new DNA technology would yield positive
results. The Detective specifically requested the SDPD
Crime Lab reexamine the vaginal swabs, a towel
recovered from the scene and Claire’s clothing.
Criminalist David Cornacchia conducted the
DNA analysis of this evidence, along with other items
of evidence from the case. (Pls.' Opp'n to Defs.' Mot, Ex.
25.) Non-sperm fractions of blood stains on Claire’s
jeans identified Tatro as a match. (Id. at 4.) Tatro was
also identified as a possible contributor to non-sperm
fraction stains on Claire’s underwear. (Id. at 6.) In
addition, DNA analysis of a sperm fraction of the
combined vaginal swab extracts returned a hit to
Brown.4
At the time of Claire’s murder, Brown was
thirty-two (32) years old, single, and worked as a
criminalist in the SDPD Crime Lab. At that time, it
was common practice for male criminalists working in

10a
the Lab to use their own semen samples or samples
from their male coworkers to test the reliability of
reagents used in detecting the presence of acid
phosphatase, an enzyme present at high levels in
sperm, and in microscopic examinations to identify
sperm. (Pls.' Opp'n to Defs.' Mot., Ex. 14 at 27; Ex. 18 at
15; Ex. 19 at 19; Ex. 20 at 14.)
Around the time Cornacchia reported the results
of his DNA analysis, Defendant Lambert, a detective
with the SDPD, began investigating Claire’s murder. In
the course of that investigation, Lambert read Claire’s
case file and discussed the case with numerous
witnesses, including Cornacchia, John Simms, James
Stam, Jennifer Shen and a number of other individuals
who previously worked with Brown in the Crime Lab.
Brown left the Crime Lab in 2002, after many years of
service. (Defs.' Mot., Ex. T at 24.)
Simms tested some of the evidence from Claire’s
case shortly after the murder. At his deposition in this
case, Simms testified he told Defendant Lambert there
was a possibility he “could have done” something while
“working on the evidence that might have resulted in
possible contamination” of the evidence with Brown’s
semen sample, “that there was a possibility.” (Pls.'
Opp'n to Defs.' Mot., Ex. 14 at 76.) (See also id. at 87
(stating Simms told Lambert he had “concerns about a
breach of protocol that [he] may have committed that
might have led to possible contamination.”))
Stam, one of Brown’s former supervisors in the
Crime Lab, also testified in his deposition in this case
that he told Defendant Lambert he believed
“contamination” was a more likely explanation as to
why Brown’s DNA was found on the evidence from the
Hough case. (Pls.' Opp'n to Defs.' Mot., Ex 18 at 26.) He
tried “to convince Detective Lambert that you need to

11a
look at the contamination first. That needs to be the No.
1 thing. You need to eliminate that 100 percent and
then maybe go on with the rest of it.” (Id. at 30.)
It is unclear when Defendant Lambert had these
conversations with Simms and Stam. However,
Cornacchia testified at his deposition in this case that
he informed Lambert about the male criminologists'
practice of using their own semen samples no later than
November 2013, before Lambert applied for the search
warrant in this case. (Pls.' Opp'n to Defs.' Mot., Ex. 24
at 59) (stating no later than November 2013, Cornacchia
“discussed with Detective Lambert issues concerning
the presence of semen samples from analysts in the lab
being something that happens.”)
On January 3, 2014, Defendant Lambert applied
for a search warrant for Brown’s home, which Brown
then shared with his wife Rebecca Brown and
Rebecca’s mother and brother. In the search warrant
affidavit, Lambert recounted the facts surrounding
Claire’s murder and the initial investigation. (Defs.'
Mot., Ex. C.) He also recounted the cold case
investigations that began in 1996. He also went over
DNA evidence and analysis, in general. Absent from
the affidavit, however, was any discussion of the nowoutdated lab practices in 1984, which were considerably
different from 2012 practices when the DNA analysis in
this case was conducted.
The affidavit then turned to the DNA analysis of
the evidence in Claire’s case, and explained that
through that analysis, two suspects were identified.
The first was Tatro. Lambert set out Tatro’s criminal
history prior to Claire’s murder, which included
convictions for rape and battery, and stated after
Claire’s murder, Tatro was also convicted of the
attempted rape of a teenage girl in La Mesa, California.

12a
Tatro was also a person of interest in the February
1984 murder of prostitute Carol Defleice.5 The second
suspect identified through the DNA analysis was
Brown. As noted, Brown was identified through
analysis of a combined sperm fraction (where DNA is
extracted from sperm cells) from the vaginal swab
taken from the victim.
In the affidavit, Lambert stated Brown was a
former employee of the SDPD Crime Lab, but he failed
to inform the judge of the male lab employees' practice
of using their own semen samples or samples from their
coworkers in testing reagents in the Lab. Rather than
raising the possibility that the vaginal swab may have
been contaminated in the Lab by Brown’s semen
sample, Lambert stated Jennifer Shen, then the
manager of the Lab, stated, “BROWN had no access to
the evidence in the HOUGH murder” and “that cross
contamination is not possible.” (Defs.' Mot., Ex. C at
17.) This statement was made despite numerous
documented instances of contamination in the Crime
Lab. (Pls.' Opp'n to Defs.' Mot. at 19-22) (listing twenty
(20) instances of cross contamination). Lambert also
failed to disclose to the judge that the autopsy analysis
of the vaginal swab in 1984 was negative for sperm.
Defendant Lambert then recounted in the
affidavit his investigation into Brown, which revealed
that prior to getting married and while working in the
Lab, Brown talked about going to strip clubs. Lambert
also recounted Brown’s nickname in the Lab was
“Kinky,” and other lurid stories about Brown from his
coworkers. Lambert then concluded, based on the 2012
DNA analysis of the vaginal swab, that “Kevin
BROWN had sexual intercourse with 14 year old Claire
HOUGH.” (Id. at 29.) Despite failing to find any
evidence linking Tatro and Brown, the affidavit

13a
identified Brown as a suspect in Claire’s murder,
together with Tatro.6 Lambert stated, “I believe the
sexual intercourse Brown had with Claire [ ] was not
consensual and appears to be contemporaneous to the
murder.” (Id. at 30-31). Lambert’s theory was that
Brown and Tatro were “the perpetrators, acting in
concert, in the commission of the sexual assault,
mutilation, and murder of Claire HOUGH,” (id. at 4),
and stated the search warrant was an “attempt to
obtain information to link” Brown and Tatro. (Id.)
Lambert also sought the warrant “to find evidence that
Kevin Brown is following this case, and another similar
1978 murder of a teenage girl Barbara NANTAIS.” (Id.
at 3.)
The search warrant affidavit requested
permission to seize ten (10) categories of evidence,
including: (1) “Newspaper clippings or any other print
news relating to the murders of Claire HOUGH and/or
Barbara
NANTAIS[,]”
(2)
“Address
books,
diaries/journals, hand written in nature[,]” (3) “San
Diego Police Department Crime Case Reports and/or
Arrest Reports relating to Sexual Assaults[,]” (4)
“Magazine, videos, ... books photographs or other
written or photographic evidence depicting or related
to teenage or preteen pornography, rape, bondage, and
sadomasochism[,]” (5) “Receipts for storage facilities
including offsite storage, safety deposit boxes and
‘cloud’ storage[,]” and (6) “Photographs, disposable
cameras, negatives, photographic film that relate to
Claire HOUGH, Ronald TATRO, James ALT, or
Barbara NANTAIS.” (Id. at 2-3.) Lambert also
requested permission to seize “Papers, documents and
effects tending to show dominion and control” over the
premises, (id. at 2), though it was well known the
Browns lived in the home. (Pls.' Opp'n to Defs.' Mot.,

14a
Ex. 27 at 91.) Lambert presented his affidavit in
support of the warrant to a district attorney, who
reviewed it and did not offer any changes or
corrections. (Defs.' Mot., Ex. G at 117.) Based on
Lambert's affidavit, the judge issued the warrant.
The warrant was executed six days later on January 9,
2014. On that day, prior to executing the warrant, the
officers scheduled to participate in the search attended
a meeting at police headquarters. (Pls.' Opp'n to Defs.'
Mot., Ex. 27 at 95.) During that meeting, Lambert
conducted a search warrant briefing during which he
told the detectives he wanted them to seize every
videotape in the house. (Pls.' Mot., Ex. 5 at 96.)
It is unclear what time the search began and
what time it ended. It is also unclear how many officers
were involved in the search.7 However, the evidence
reflects Defendant Lambert participated in the search
as did Defendant Maura Mekenas-Parga, another
SDPD Detective, (Pls.' Opp'n to Defs.' Mot., Ex. 27 at
95), and that they both made decisions about what
items would be seized. (Pls.' Opp'n to Defs.' Mot., Ex. 29
at 44-45.) Defendant Mekenas-Parga testified at her
deposition in this case that it was her understanding
the warrant allowed for the seizure of all photographs
the officers deemed as “possible evidence.” (Id. at 53.)
She also testified the warrant allowed the officers to
seize “all VCR tapes.” (Pls.' Mot., Ex. 4 at 78-79.)
Mekenas-Parga testified her reading of the warrant
allowed for seizure of “anything recording.” (Id. at 80.)
According to Mekenas-Parga, “any cell phone in the
house could be seized,” “any thumb drive in the house
could be seized.” (Id. at 84.) Mekenas-Parga also
testified “any newspaper article, regardless of what it
said or the date ... was legitimately subject to
seizure[.]” (Id. at 113.) Notably, Mekenas-Parga did not

15a
“review any of the items in” certain boxes “to see if
they could be removed and left because they had
nothing to do with anything permitted to be seized in
the warrant[.]” (Id. at 89.) She also did not review any
of the photo albums before they were removed from the
house. (Id. at 91.)
In all, the officers seized fourteen (14) boxes
from the Browns' home. (Defs.' Mot., Ex. O.) The items
seized included: (1) “Papers Christmas Letter w/cabin
info folder[,]” (2) “Binder ‘chemical imbalance’ mental
health problems[,]” (3) Kevin Brown's SDPD badge, (4)
seven boxes of photos, journals, books, photo albums,
paperwork, (5) other loose photos and photo albums, (6)
a “callback roster from June 1998 for” SDPD, (7)
handwritten cards, (8) notebooks, (9) a drama program
from Mater Dei dated March 1, 2013,8 (10) a file folder
titled, “Apple Products,” (11) a file folder titled,
“Business Folder,” and (12) a file folder titled “Divorce
Annulments[.]” (Defs.' Mot., Ex. E.) (See also Decl. of
Rebecca Brown in Supp. of Pls.' Mot., Exs. A-B.)
Detective Lambert testified he completed his
review of the evidence seized from the Browns' home
approximately three months after the seizure, or in
April 2014. (Defs.' Mot., Ex. G at 127.) None of the
evidence he reviewed “had any probative value to
prove that Kevin Brown had committed the” murder of
Claire Hough. (Id.) Nevertheless, Lambert did not
return the property to the Browns at that time. (Id.)
Instead, Rebecca Brown began inquiring of Lambert
about the return of their property. She specifically
asked about her computer, which was returned to her
two weeks thereafter. (Defs.' Mot., Ex. H at 126.)
Approximately three months after that, she inquired of
Lambert when the rest of their property would be

16a
returned. (Id. at 127.) Lambert’s response was, “it’s all
coming back soon[.]” (Id.)
After another month passed without the return
of their property, Rebecca Brown again phoned
Defendant Lambert to inquire. (Pls.' Opp'n to Defs.'
Mot., Ex. 32 at 73.) As before, Lambert told her they
would “be getting it all back soon.” (Id.) The Browns
believed that once their property was returned, “that it
would be over.” (Id. at 75.) Kevin Brown, in particular,
was “fixated on the issue of the return of the property.”
(Id.) “He started putting a calendar in his closet in June
when the detective said, it’s coming back soon. So he
would mark off each date until it was going to happen.”
(Id. at 76.)
After the search was conducted, and while the
Browns were waiting for the return of their property,
Kevin Brown began experiencing increased anxiety.
(Id. at 43.) Brown first began suffering from anxiety
disorder in high school. (Id. at 36.) His insomnia
worsened. (Id.) Rebecca Brown testified that her
husband was depressed. (Id. at 46.) “He had difficulty
getting out of bed. He lost 25 pounds. His hands started
shaking. He started looking older. He had me take him
to Urgent Care a couple of times because he was
anxious.” (Id.) On September 26, 2014, Rebecca Brown
came home from work and found her husband in bed.
(Id. at 62.) She said he “was groggy. There was a bullet
on the floor next to the bed, and he said he'd written me
a letter.” (Id. at 62-63.)
After the September 26, 2014 incident, Rebecca
Brown’s brother John Blakely removed all the guns
from the Brown household because “it was clear to
[him] that something bad was happening” with them.
(Defs.' Mot., Ex. Q at 16.) That was the second time Mr.
Blakely removed the guns from the house after the

17a
search warrant was executed. (Id.) Mr. Blakely
informed Defendant Lambert he had removed the guns
from the house, and did so again after the incident on
September 26, 2014. (Id.) Later that week, Lambert
went to Rebecca Brown’s workplace to conduct a
welfare check on her. Brown testified that during that
meeting, she told Lambert her husband “might kill
himself.” (Id. at 107.) Lambert denies Rebecca Brown
shared that concern with him. (Defs.' Mot., Ex. G at
148.) Less than one month later, Kevin Brown
committed suicide by hanging himself from a tree at
Cuyamaca State Park. (Third Am. Compl. (“TAC”) ¶
244.)
On July 16, 2015, Rebecca Brown filed the
present case on behalf of herself and Kevin Brown’s
Estate. A Second Amended Complaint (“SAC”) filed on
October 5, 2015, named only Lambert as a Defendant,
and alleged claims for (1) execution of a warrant
obtained in violation of Franks v. Delaware, (2)
execution of an overbroad warrant, (3) seizure of
property beyond the scope of the warrant, (4) wrongful
detention of, and refusal to return, seized property, (5)
wrongful death under 42 U.S.C. § 1983, and (6)
deprivation of right of familial association. On June 8,
2016, Plaintiffs filed the TAC, which realleges the
claims in the SAC and adds Maura Mekenas-Parga as a
Defendant.
II.
DISCUSSION
As stated above, both sides move for summary
judgment in this case. Plaintiffs move for partial
summary judgment on claims three and four only, and

18a
Defendants move for summary judgment on all of
Plaintiffs' claims.
A. Legal Standard
Summary judgment is appropriate if there is no
genuine issue as to any material fact, and the moving
party is entitled to judgment as a matter of law. Fed. R.
Civ. P. 56(c). The moving party has the initial burden of
demonstrating that summary judgment is proper.
Adickes v. S.H. Kress & Co., 398 U.S. 144, 157 (1970).
The moving party must identify the pleadings,
depositions, affidavits, or other evidence that it
“believes demonstrates the absence of a genuine issue
of material fact.” Celotex Corp. v. Catrett, 477 U.S. 317,
323 (1986). “A material issue of fact is one that affects
the outcome of the litigation and requires a trial to
resolve the parties' differing versions of the truth.”
S.E.C. v. Seaboard Corp., 677 F.2d 1301, 1306 (9th Cir.
1982).
The burden then shifts to the opposing party to
show that summary judgment is not appropriate.
Celotex, 477 U.S. at 324. The opposing party's evidence
is to be believed, and all justifiable inferences are to be
drawn in its favor. Anderson v. Liberty Lobby, Inc., 477
U.S. 242, 255 (1986). However, to avoid summary
judgment, the opposing party cannot rest solely on
conclusory allegations. Berg v. Kincheloe, 794 F.2d 457,
459 (9th Cir. 1986). Instead, it must designate specific
facts showing there is a genuine issue for trial. Id. See
also Butler v. San Diego District Attorney's Office, 370
F.3d 956, 958 (9th Cir. 2004) (stating if defendant
produces enough evidence to require plaintiff to go
beyond pleadings, plaintiff must counter by producing
evidence of his own). More than a “metaphysical doubt”

19a
is required to establish a genuine issue of material fact.
Matsushita Elec. Indus. Co., Ltd. v. Zenith Radio
Corp., 475 U.S. 574, 586 (1986).
B. Franks Claim
In their first claim, Plaintiffs allege Defendant
Lambert violated their Fourth Amendment rights
when he obtained the search warrant for the Brown
home through the use of “false statements, and
deliberate material omissions.” (Third Am. Compl. ¶
249.) This claim is based on Franks v. Delaware, 438
U.S. 154 (1978), wherein the Court “established a
criminal defendant’s right to an evidentiary hearing
when he made a showing of deliberate or reckless
disregard for the truth in a search warrant affidavit and
demonstrated that but for the dishonesty, the affidavit
would not support a finding of probable cause.” Liston
v. County of Riverside, 120 F.3d 965, 972 (9th Cir. 1997).
Although this standard was established in a criminal
context, it “ ‘also defines the scope of qualified
immunity in civil rights actions.’ ” Id. (quoting Branch
v. Tunnell, 937 F.2d 1382, 1387 (9th Cir. 1991))
(quotation marks omitted). To survive summary
judgment on a Franks claim of judicial deception, a
Section 1983 plaintiff must “(1) establish that the
warrant affidavit contained misrepresentations or
omissions material to the finding of probable cause, and
(2) make a ‘substantial showing’ that the
misrepresentations
or
omissions
were
made
intentionally or with reckless disregard for the truth.”
Bravo v. City of Santa Maria, 665 F.3d 1076, 1087 (9th
Cir. 2011). “If these two requirements are met, the
matter must go to trial.” Id. (citing Liston, 120 F.3d at
973). See also Hervey v. Estes, 65 F.3d 784, 788-789 (9th

20a
Cir. 1995) (stating to survive motion for summary
judgment on the ground of qualified immunity plaintiff
must make a substantial showing of deliberate
falsehood or reckless disregard for the truth and
establish that, “but for the dishonesty, the challenged
action would not have occurred.”). Defendants argue
these elements are not met here, therefore they are
entitled to summary judgment.
In support of this argument, Defendants address
a number of alleged omissions and misrepresentations
in Lambert’s affidavit in support of the warrant. As for
omissions, Defendants admit Lambert omitted that the
autopsy report concluded “No spermatazoa noted” in
the oral, anal and vaginal smears taken from the victim.
(Pls.' Opp'n to Defs.' Mot., Ex. 12 at 4.) Defendants also
do not deny Lambert failed to disclose that a few days
after the autopsy, Simms analyzed vaginal swabs taken
from the victim and, consistent with the autopsy
results, found no evidence of sperm. (Pls.' Opp'n to
Defs.' Mot, Ex. 14 at 44-52.) Lambert also failed to
disclose that the pathologist performing the autopsy did
not find any physical trauma consistent with rape, or
make any findings that Claire was raped or engaged in
sexual intercourse before her death. Defendants also do
not deny that Lambert failed to disclose the
information he received from Cornacchia that male
analysts working in the SDPD crime lab, like Brown,
used their own semen samples when testing reagents
for acid phosphatase. (Pls.' Opp'n to Defs.' Mot., Ex. 24
at 59.) Lambert also failed to disclose that Stam,
Brown’s former supervisor, told Lambert he believed
“contamination” was a “more likely explanation” as to
why Brown’s DNA was found on the victim’s vaginal
swab. (Pls.' Opp'n to Defs.' Mot., Ex. 18 at 26.)9 Finally,
Defendants admit Lambert omitted that despite a

21a
lengthy investigation, there was no evidence of any
connection between Brown and Tatro.
On the issue of misrepresentations, Defendants
deny Lambert made any, but for the purpose of the
present motion, the Court must construe the evidence
in the light most favorable to Plaintiffs, and as so
construed, there are at least three misrepresentations
in the affidavit. The first is Lambert’s statement that
cross contamination was not possible. The second is the
statement that Brown had no access to the evidence in
the Hough case. The third is the statement that Brown
had sexual intercourse with the victim.
In the affidavit, Lambert stated that SDPD Lab
Manager Jennifer Shen informed him “that cross DNA
contamination is not possible.” (Defs.' Mot., Ex. C at 17)
(emphasis in original). Despite this unequivocal
statement, Shen testified she did not use “those
words[,]” i.e., say that cross contamination is not
possible. (Pls.' Opp'n to Defs.' Mot., Ex. 22 at 136.) And
contrary to the statement, Plaintiffs presented
evidence of several documented instances of cross
contamination by the Crime Lab. The statement that
cross contamination is not possible is demonstrably
false.
Next, Lambert’s statement that Brown had no
access to the evidence in this case created the
impression that cross contamination was not possible.
However, that statement is misleading given the
evidence that lab employees' semen was present in the
Lab and available for testing reagents even if the
employee was not otherwise involved or participating
in the particular investigation.
Finally, the statement that “Kevin BROWN had
sexual intercourse with 14 year old Claire HOUGH[,]”
(Defs.' Mot., Ex. C at 29), is a possible

22a
misrepresentation. The problem with the statement is
that it is couched in absolute terms when the
evidentiary foundation for the statement is
questionable. The autopsy report, which was not
disclosed in the affidavit and “did not make any findings
as to whether Hough was raped or engaged in sexual
intercourse before her death[,]” (Defs.' Mot., Ex. I at 3),
contradicted that statement. Moreover, cross
contamination had yet to be ruled out. The categorical
statement that Brown had sex with the victim,
combined with the statements from Brown’s prior coworkers that he used to frequent strip clubs and his
nickname was “Kinky,” painted a picture of Brown as
sexually deviant. The statement is misleading because
it failed to inform the magistrate about the possibility
that Brown’s DNA was linked to the case due to cross
contamination.
Construing
these
omissions
and
misrepresentations in Plaintiffs' favor, Plaintiffs have
made “a substantial showing of a deliberate falsehood
or reckless disregard” for the truth. Hervey, 65 F.3d at
789. As discussed, the warrant affidavit states that
“Brown had no access to the evidence in the
[underlying case] and [ ] that cross DNA contamination
is not possible.” (Defs.' Mot., Ex. C at 17.) However,
several instances of cross contamination have been
documented by the Crime Lab, and the possibility (and
reality) of cross contamination in crime labs is well
known. The categorical statement that cross
contamination is not possible is therefore obviously
false and a reasonable magistrate viewing the affidavit
would know that cross contamination can and does
occur. But by stating Brown had no access to the
evidence, the impression was created that cross
contamination in this particular case was not possible.

23a
The affidavit does state that “Cornacchia told
[Lambert] San Diego Crime Lab employee’s [sic] DNA
profiles are uploaded into CODIS to identify potential
cross contamination issues[,]” (id. at 17), but it omits
critical information about how employee DNA samples,
including semen and semen from Brown himself, were
provided and present in the Lab for testing reagents
even if the employee was not otherwise involved or
participating in the particular investigation. Some facts
are “required to [be presented in an affidavit] to
prevent technically true statements in the affidavit
from being misleading.” Liston, 120 F.3d at 973. Such is
the case with the statement that “Brown had no access
to the evidence[,]” as that created a false impression
that contamination was not possible. Similarly, the
affidavit detailed how trace amounts of semen from
Brown could be reconciled with rape—e.g., failure to
achieve full ejaculation, or low sperm count, (Defs.'
Mot., Ex. C at 17), but the affidavit did not inform the
magistrate about the possibility of trace amounts of
Brown’s semen being present due—not to sexual
assault—but to cross contamination stemming from the
presence of small amounts of semen in samples from
Lab employees like Brown.10
In addition, several facts were omitted from the
affidavit, all of which have to do directly or indirectly
with the possibility of cross contamination: Lab
employees, including Brown, provided their own semen
samples at that time; Lab practices were relatively lax
and more prone to contamination given the
undeveloped state of DNA science at that time; several
Lab employees believed cross contamination was “more
likely” than the possibility that Brown was complicit in
murder; trace amounts of Brown’s semen was
consistent with cross contamination due the presence of

24a
his semen sample in the Lab; the pathologist who
performed the autopsy did not find semen, nor did
Simms, who analyzed a vaginal swab at the same time;
the pathologist performing the autopsy did not note any
physical trauma consistent with rape, or make any
findings that the victim was raped or engaged in sexual
intercourse before her death; and, there was no
evidence linking Tatro and Brown. All of the evidence
that was omitted from the affidavit tended to negate
Lambert’s theory that Brown was involved in Claire’s
murder. And all of the omitted facts were consistent
with an innocent explanation for the DNA hit: cross
contamination.
The omissions of these facts make the
representations in the affidavit discussed above
misleading by “selectively included information
bolstering probable cause, while omitting information
that did not.” United States v. Jenkins, 850 F.3d 1109,
1117 (9th Cir. 2017). Plaintiffs need not establish
specific intent to deceive the issuing court. Bravo, 665
F.3d at 1083 (citation omitted). To survive summary
judgment, Plaintiffs “need only make a substantial
showing of a deliberate or reckless omission, not ‘clear
proof.’ ” Id. at 1087 (quoting Liston, 120 F.3d at 974).
Drawing all inferences in Plaintiffs' favor, as the Court
must at this stage of the proceedings, Plaintiffs have
shown the affidavit was crafted to state facts to create a
strong impression of guilt (that Brown acted in concert
with Tatro to sexually assault, mutilate and murder the
victim) by misrepresenting and omitting important
facts. Based on the record presently before the Court,
and construing the evidence in Plaintiffs' favor,
Plaintiffs have made a substantial showing of deliberate
falsehood or reckless disregard for the truth.

25a
Having made that showing, it now falls to the
Court to decide “whether the affidavit, once corrected
and supplemented, establishes probable cause.” Bravo,
665 F.3d at 1084 (citing Ewing v. City of Stockton, 588
F.3d 1218, 1224 (9th Cir. 2009)). See also Butler v. Elle,
281 F.3d 1014, 1024 (9th Cir. 2002) (“Materiality is for
the court, state of mind is for the jury.”) “If probable
cause remains after amendment, then no constitutional
error has occurred.” Bravo, 665 F.3d at 1084.
The affidavit, once corrected and supplemented,
lacks probable cause to search Brown’s home. “Officers
have probable cause for a search when ‘the known facts
and circumstances are sufficient to warrant a man of
reasonable prudence in the belief that contraband or
evidence of a crime will be found.’ ” United States v.
Henderson, 241 F.3d 638, 648 (9th Cir. 2000) (quoting
Ornelas v. United States, 517 U.S. 690, 696 (1996)).
Probable cause that Brown murdered the victim in
concert with Tatro and that evidence of the crime
would be found in the home rested squarely on the
theory that Brown had sexual intercourse with, and
raped, the victim. The affidavit declared as much, and
did so on the strength of the DNA evidence. But the
evidentiary value of the DNA evidence is highly
suspect when all the facts are known. When, as here,
lab employees themselves suspect contamination and
urge elimination of that possibility before proceeding, a
DNA “hit” quickly descends from extremely damning
to highly questionable evidence, unless and until
contamination can be ruled out. Other than the DNA
evidence the affidavit here relies on lurid stories and a
pejorative nickname to bolster probable cause. That, of
course, is not sufficient to warrant a reasonable person
to believe that the suspect committed rape and murder
and that evidence of those crimes will be found in his

26a
residence. A reasonable magistrate presented with all
of the information would not have issued the warrant.
Liston, 120 F.3d at 975.11
In light of these findings, Defendants are not
entitled to summary judgment on Plaintiffs' first claim.
At trial, Plaintiffs will have to convince a jury that
Lambert deliberately or recklessly omitted the
foregoing facts and included the misleading statements
in the affidavit. See Hervey, 65 F.3d at 791. “That is a
factual determination for the trier of fact.” Id.
C. Overbroad Warrant
Plaintiffs' second claim alleges the search
warrant was overbroad. In response to Defendants'
motion, Plaintiffs identify Clauses 2, 5 and 7 as being
overbroad. Clause 2 is the “dominion and control”
clause, and it allowed for the seizure of “Papers,
documents and effects tending to show dominion and
control over said premises....” (Defs.' Mot., Ex. C at 2.)
Clause 5 allowed for the seizure of “Address books,
diaries/journals, hand written in nature.” (Id. at 3.)
Clause 7 allowed for the seizure of “Magazines, videos,
electronic files, books, photographs or other written or
photographic evidence depicting or related to teenage
or preteen pornography, rape, bondage, and
sadomasochism.” (Id.) Defendants assert the warrant
was not overbroad, and even if it was, they are entitled
to qualified immunity.
“A warrant must particularly describe ‘the place
to be searched, and the person or things to be seized.’ ”
Ewing v. City of Stockton, 588 F.3d 1218, 1228 (9th Cir.
2009) (quoting U.S. Const. amend. IV). This
particularity “requirement is designed ‘to prevent a
general, exploratory rummaging in a person’s

27a
belongings.’ ” Id. (quoting United States v. McClintock,
748 F.2d 1278, 1282 (9th Cir. 1984)) (internal quotation
marks omitted). The Ninth Circuit considers three
factors in analyzing the breadth of a warrant:
(1) whether probable cause existed to seize all
items of a category described in the warrant; (2)
whether the warrant set forth objective
standards by which executing officers could
differentiate items subject to seizure from those
which were not; and (3) whether the government
could have described the items more particularly
in light of the information available ....
United States v. Flores, 802 F.3d 1028, 1044 (9th Cir.
2015), cert. denied, 137 S.Ct. 36 (2016), (quoting United
States v. Lei Shi, 525 F.3d 709, 731-32 (9th Cir. 2008)).
Here, Defendants assert the warrant was not
overbroad, but they fail to show the Clauses identified
above, particularly the open-ended Clause 5, were not
overbroad as a matter of law. Indeed, they do not
address these specific clauses at all, instead arguing
generally that “[t]he warrant was specific as to the
places to be searched and the items to be seized.” (Mem.
of P. & A. in Supp. of Defs.' Mot. at 17.) This
generalized argument does not show Defendants are
entitled to summary judgment on the ground the
warrant was not overbroad.
Nor are Defendants entitled to summary
judgment on the ground of qualified immunity. On this
issue, Defendants raise two arguments. First, they
suggest Lambert is entitled to qualified immunity
because he presented his affidavit to his supervisor and
a district attorney, and a judge then issued the warrant.
(Mem. of P. & A. in Supp. of Defs.' Mot. at 16.) Given

28a
the Court’s discussion on Plaintiffs' first claim,
however, Lambert is not entitled to qualified immunity
on the claim that the warrant was overbroad. See Groh
v. Ramirez, 540 U.S. 551, 564 (2004) (“Moreover,
because petitioner himself prepared the invalid
warrant, he may not argue that he reasonably relied on
the Magistrate’s assurance that the warrant contained
an adequate description of the things to be seized and
was therefore valid.”)12
Next, Defendants argue Defendant MekenasParga is entitled to qualified immunity because she did
not personally participate in the efforts to obtain the
warrant. As an initial matter, this argument goes to
Plaintiffs' substantive claim, not to the issue of qualified
immunity. Nevertheless, the argument is not
persuasive. There is no dispute Mekenas-Parga did not
assist in obtaining the warrant, but Plaintiffs' claims
against her are not based on the request for and the
subsequent issuance of the warrant. Rather, they are
based on her execution of the warrant, namely
executing a warrant that was overbroad on its face and
seizing documents that went beyond the scope of the
warrant. Defendants have not shown Defendant
Mekenas-Parga did not personally participate in those
tasks. On the contrary, the evidence reflects she was
involved in the execution of the warrant and made
decisions about which items would be seized. (Pls.'
Opp'n to Defs.' Mot., Ex. 27 at 95; Pls.' Opp'n to Defs.'
Mot., Ex. 29 at 44-45.)
In their supplemental brief in opposition to
Plaintiffs' ex parte motion to certify the appeal as
frivolous, Defendants raise for the first time another
argument in support of a finding that Mekenas-Parga is
entitled to qualified immunity, namely, that she, like
Lambert, was entitled to rely on the magistrate’s

29a
issuance of the warrant. (See Defs.' Supp. Br. in Opp'n
to Pls.' Ex Parte Mot. to Certify Interlocutory Appeal
as Frivolous at 9-10.) However, the Court agrees with
Plaintiffs that officers who plan and lead a search, like
Mekenas-Parga did in this case, “ ‘must actually read
the warrant and satisfy themselves that they
understand its scope and limitations, and that it is not
defective in some obvious way.’ ” KRL v. Estate of
Moore, 512 F.3d 1184, 1190 (9th Cir. 2007) (quoting
Ramirez v. Butte-Silver Bow County, 298 F.3d 1022,
1027 (9th Cir. 2001)). Thus, Defendants are not entitled
to summary judgment on Plaintiffs' second claim.
D. Unlawful
Unlawful Seizure of Property Beyond the Scope
of the Warrant
Plaintiffs' third claim alleges Defendants seized
property beyond the scope of the warrant in violation of
the Fourth Amendment.13 Both Plaintiffs and
Defendants move for summary judgment on this claim,
with Plaintiffs arguing Defendants seized property
beyond the scope of the warrant, and Defendants
arguing to the contrary.14
“Because ‘indiscriminate searches and seizures
conducted under the authority of ‘general warrants’
were the immediate evils that motivated the framing
and adopting of the Fourth Amendment,’ that
Amendment requires that the scope of every
authorized search be particularly described.” Walter v.
United States, 447 U.S. 649, 657 (1980) (internal
citations omitted). “ ‘[I]f the scope of the search exceeds
that permitted by the terms of a validly issued warrant
..., the subsequent seizure is unconstitutional without
more.’ ” Wilson v. Layne, 526 U.S. 603, 611 (1999)
(quoting Horton v. California, 496 U.S. 128, 140 (1990)).

30a
See also United States v. Sedaghaty, 728 F.3d 885, 915
(9th Cir. 2014) (stating government’s seizure of items
beyond terms of warrant violates Fourth Amendment.)
The Supreme Court has emphasized that “there
are grave dangers inherent in executing a
warrant authorizing a search and seizure of a
person’s papers” as opposed to physical objects,
and that given the danger of coming across
papers that are not authorized to be seized,
“responsible officials, including judicial officials,
must take care to assure that [searches] are
conducted in a manner that minimizes
unwarranted intrusions upon privacy.”
Sedaghaty, 728 F.3d at 914 (quoting Andresen v.
Maryland, 427 U.S. 463, 482 n.11 (1976)). See also
United States v. Rettig, 589 F.2d 418, 422-23 (9th Cir.
1978) (“An examination of the books, papers, and
personal possessions in a suspect’s residence is an
especially sensitive matter, calling for careful exercise
of the magistrate’s judicial supervision and control.”)
Here, Defendants argue in their opposition to
Plaintiffs' motion that the seizure of Plaintiffs' property
is subject to the test set out in Pacific Marine Center,
Inc. v. Silva, 809 F.Supp.2d 1266 (E.D. Cal. 2011). That
test states, “[w]hen considering ‘[w]hether a search
exceeds the scope of a search warrant,’ the court must
engage in ‘an objective assessment of the circumstances
surrounding the issuance of the warrant, the contents
of the search warrant, and the circumstances of the
search.’ ” Id. at 1280 (quoting United States v.
Hitchcock, 286 F.3d 1064, 1071 (9th Cir.), amended by
298 F.3d 1021 (9th Cir. 2001)). The claim in this case,
however, is not addressed to the scope of the search.

31a
Indeed, Plaintiffs do not appear to dispute that
Defendants were authorized to search the property
that was ultimately seized in this case. Rather, the
claim here concerns the actual seizure of Plaintiffs'
property, and alleges the seizure went beyond the
scope of the warrant. The test set out in Pacific
Marine, therefore, does not apply here.
The law applicable to the claim asserted here is
found in United States v. Tamura, 694 F.2d 591 (9th
Cir. 1982). In that case, as here, the defendants
“challenge[d] only the scope of the seizure.” Id. at 595.
There, “[w]hen the agents seized all Marubeni’s records
for the relevant time periods, they took large quantities
of documents that were not described in the search
warrant.” Id. In response to the defendant’s challenge
to the seizure, “[t]he Government argue[d] that the
seizure was reasonable because the documents were
intermingled and it was difficult to separate the
described documents from the irrelevant ones.” Id. The
Ninth Circuit was not persuaded. It stated: “It is highly
doubtful whether the wholesale seizure by the
Government of documents not mentioned in the
warrant comported with the requirements of the fourth
amendment. As a general rule, in searches made
pursuant to warrants only the specifically enumerated
items may be seized.” Id. The court acknowledged “that
all items in a set of files may be inspected during a
search, provided that sufficiently specific guidelines for
identifying the documents sought are provided in the
search warrant and are followed by the officers
conducting the search.” Id. However, the court also
stated, “the wholesale seizure for later detailed
examination of records not described in a warrant is
significantly more intrusive, and has been characterized
as ‘the kind of investigatory dragnet that the fourth

32a
amendment was designed to prevent.’ ” Id. (quoting
United States v. Abrams, 615 F.2d 541, 543 (1st Cir.
1980)). The court went on to state:
In the comparatively rare instances where
documents are so intermingled that they cannot
feasibly be sorted on site, we suggest that the
Government and law enforcement officials
generally can avoid violating fourth amendment
rights by sealing and holding the documents
pending approval by a magistrate of a further
search, in accordance with the procedures set
forth in the American Law Institute’s Model
Code of Pre-Arraignment Procedure. If the need
for transporting the documents is known to the
officers prior to the search, they may apply for
specific authorization for large-scale removal of
material, which should be granted by the
magistrate issuing the warrant only where onsite sorting is infeasible and no other practical
alternative exists. See United States v. Hillyard,
677 F.2d 1336, 1340 (9th Cir. 1982). The essential
safeguard required is that wholesale removal
must be monitored by the judgment of a neutral,
detached magistrate. In the absence of an
exercise of such judgment prior to the seizure in
the present case, it appears to us that the
seizure, even though convenient under the
circumstances, was unreasonable.
Id. at 595-96.
Here, there is no dispute about what Defendants
seized, namely 14 boxes of documents, four large trash
bags containing Plaintiffs' property, and a suitcase.
(Defs.' Opp'n to Pls.' Mot. at 9.) Within these boxes and

33a
trash bags were thousands of photographs and other
items, including but not limited to: (1) Rebecca Brown’s
international driving permit, (2) a music folder for
students, (3) Kevin Brown’s mother’s tax return from
2000, (4) a note from Ronald and Nancy Reagan, (5) a
coaster from the Black Angus in Wiesbaden, Germany,
(6) a copy of the Magna Carta, (7) a steamship ticket
from 1932, (8) Rebecca Brown’s report cards, (9) 45
singles of Perry Como, Bing Crosby and Barbara
Streisand and (10) a recipe for fudge. (Pls.' Mot., Ex. 5
at 124-27.) There is no dispute these items were not
subject to seizure pursuant to the warrant. (Id.)
Nevertheless, Defendants argue the seizure of
any documents outside the scope of the warrant was
reasonable because it would have been too timeconsuming for the officers to “go through every paper,
album, journal, videotape and photograph at the home.”
(Mem. of P. & A. in Supp. of Defs.' Mot. at 18.) This
argument is similar to that made by the Government in
Tamura, and like the Ninth Circuit in that case, this
Court rejects it. As indicated in Tamura and Hillyard,
the instances in which documents are “so intermingled
that they cannot feasibly be sorted on site” are
“comparatively rare” and “exceptional.” Tamura, 694
F.2d at 595; Hillyard, 677 F.2d at 1340. Defendants
have not shown this is one of those cases.
Indeed, the only evidence offered in support of
Defendants' argument is the testimony of Rebecca
Brown, who when asked if she had “any idea how long
it would have taken someone to go through all those
photos if they did it at the scene at your house,”
responded, “It would have taken hours.” (Defs.' Mot.,
Ex. G at 119.) Notably, Defendants fail to provide any
evidence of how many officers were involved in
executing the warrant or how long it took those officers

34a
to execute the warrant. And contrary to Defendants'
assertion that it would have been too time-consuming
to conduct a search of these documents prior to their
seizure, it appears the officers executing the warrant
did not make that attempt. Rather, Defendant
Mekenas-Parga testified that when the officers came
across a box of photographs, they did not “go through
it.” (Pls.' Opp'n to Defs.' Mot., Ex. 29 at 52-53.) Her
feeling was “that there was no requirement of any
review of anything before it was seized.” (Pls.' Mot.,
Ex. 4 at 82.)
In this case, as in Tamura, the government
agents responsible for the search “did not minimize
intrusions on privacy, ... but instead seized papers and
records beyond those the warrant authorized.”
Sedaghaty, 728 F.3d at 914-15. On the current record,
the Court concludes the seizure of the property
described above, as well as other similar property, went
beyond the scope of the warrant, and was therefore
unreasonable and a violation of Plaintiffs' Fourth
Amendment rights.
Notwithstanding this finding, Defendants argue
they are still entitled to judgment on this claim on the
basis of qualified immunity. As with Plaintiffs' second
claim, Defendants argue here they are entitled to
qualified immunity because they did not personally
participate in the seizure. As stated above, that
argument goes to the merits of Plaintiffs' claim, not
whether Defendants are entitled to qualified immunity.
In any case, that argument is refuted by the evidence,
which reflects both Lambert and Mekenas-Parga
participated in the execution of the warrant. (Defs.'
Mot., Ex. D at 8; Ex. G at 95.) Contrary to Defendants'
argument, they are not entitled to qualified immunity
from this claim. See Shamaeizadeh v. Cunigan, 338

35a
F.3d 535, 555 (6th Cir. 2003) (“The officers violated a
clearly established constitutional right of which
reasonable persons would have known—a right to be
free of seizures beyond the scope of a warrant, in the
absence of an exception to the warrant requirement
such as the plain view doctrine.”); Demuth v. Fletcher,
No. 08-5093 (JRT/LIB), 2011 U.S. Dist. LEXIS 34638,
at *32-36, 2011 WL 1298020 (D. Minn. March 31, 2011)
(denying qualified immunity on Fourth Amendment
claim where “[t]he most cursory review of the materials
would have revealed the inappropriateness of seizing
them. A reasonable fact-finder could conclude that
when executing the warrant, defendants went beyond
their scope and seized materials that had not been
enumerated, which a reasonable officer would not have
seized.”) Rather, in light of the above, the Court grants
Plaintiffs' motion for summary judgment on this claim.
E. Wrongful Detention of Seized Property
The next claim is that Defendant Lambert
wrongfully detained Plaintiffs' illegally seized property
in violation of the Fourth Amendment. As with the
third claim for relief, both Plaintiffs and Defendants
move for summary judgment on this claim.
As an initial matter, Defendants request that the
Court dismiss this claim because it is not legally viable.
(Defs.' Opp'n to Pls.' Mot. at 11.) They contend that to
the extent Defendant Lambert’s detention of Plaintiffs'
property was wrongful, Plaintiffs' claim arises under
the Due Process Clause rather than the Fourth
Amendment. Although there is case law to support
Defendants' argument, see Fox v. Van Oosterum, 176
F.3d 342, 351 (6th Cir. 1999) (“the Fourth Amendment
protects an individual’s interest in retaining possession

36a
of property but not the interest in regaining possession
of property.”), there is also case law from the Ninth
Circuit to support Plaintiffs' claim under the Fourth
Amendment. See Tamura, 694 F.2d at 597 (“The
Government’s unnecessary delay in returning the
master volumes appears to be an unreasonable and
therefore unconstitutional manner of executing the
warrant.”) See also Brewster v. Beck, No. 15-55479,
2017 U.S. App. LEXIS 10971, at *6, 2017 WL 2662202
(9th Cir. June 21, 2017) (internal citations omitted)
(“The Fourth Amendment doesn't become irrelevant
once an initial seizure has run its course. A seizure is
justified under the Fourth Amendment only to the
extent that the government’s justification holds force.”)
Therefore, the Court declines Defendants' invitation to
dismiss this claim as improperly pleaded.
As this claim is pleaded under the Fourth
Amendment, Plaintiffs can prevail on this claim only if
they show Defendant Lambert’s detention of Plaintiffs'
property was unreasonable. Neither Plaintiffs nor
Defendants provide the Court with any guidance on
how that issue is to be determined, but it would appear
to involve “a careful balancing of the nature and quality
of the intrusion on the individual’s Fourth Amendment
interests against the countervailing governmental
interests at stake.” Forrester v. City of San Diego, 25
F.3d 804, 806 (9th Cir. 1994). See also San Jose Charter
of the Hells Angels Motorcycle Club v. City of San Jose,
402 F.3d 962, 971 (9th Cir. 2005) (quoting Berger v. New
York, 388 U.S. 41, 70 (1967) (Stewart, J., concurring)) (“
‘the standard of reasonableness embodied in the Fourth
Amendment demands that the showing of justification
match the degree of intrusion.’ ”) If that balancing test
weighed in Plaintiffs' favor, then Plaintiffs will have
shown a violation of the Fourth Amendment rights.

37a
However, even if Plaintiffs made that showing,
Defendants would be entitled to qualified immunity on
this claim. Even though Defendants did not raise this
argument initially, and despite Plaintiffs' notice of
supplemental authority, (see Docket No. 87), there was
no precedent as of November 2014, when Plaintiffs'
property was returned to Rebecca Brown, that put
Lambert on “clear notice” that his continued detention
of Plaintiffs' property under the circumstances was a
violation of Plaintiffs' Fourth Amendment rights. S.B.
v. County of San Diego, No. 15-56848, 2017 U.S. App.
LEXIS 8452, at *15, 2017 WL 1959984 (9th Cir. May 12,
2017). The cases Plaintiffs cite, Tamura, United States
v. Comprehensive Drug Testing, 621 F.3d 1162, (9th
Cir. 2010) (en banc), and Brewster, are factually
distinguishable from this case, and thus not
“sufficiently analogous” to give Lambert “fair notice
that it was objectively unreasonable” for him to
continue to detain Plaintiffs' property while he waited
for (a) the District Attorney’s office to review the
evidence and make a decision whether to file charges
against Brown, or (b) Plaintiffs to request an order
from the court to release the property.15 S.B. v. County
of San Diego, 2017 U.S. App. LEXIS 8452, at *16, 2017
WL 1959984. Thus, Defendants are entitled to qualified
immunity on this claim.
F. Wrongful Death
The next claim is for wrongful death against
Defendant Lambert. In the Third Amended Complaint,
Plaintiffs allege Lambert knew Brown “was deeply
depressed and in danger of committing suicide” after he
was accused of being involved in the death of Claire
Hough. (TAC ¶¶ 288-91.) Plaintiffs allege Lambert

38a
“elected to increase” the stress on Brown, and decided
he would refuse to return the property seized from
Plaintiffs' home “despite repeated requests to return
the wrongfully seized items in order to create the
highest possible level of stress on Kevin Brown.” (Id. ¶
299.) Plaintiffs allege “Lambert acted with knowledge
that his refusal to return the seized property ... created
a high risk that Kevin Brown would commit suicide,
and that Kevin’s suicide was a foreseeable result of his
continued refusal to return the seized property.” (Id. ¶
300.)
Defendants are the only parties moving for
summary judgment on this claim. They argue Plaintiffs'
claim actually sounds in negligence, which is insufficient
to support a claim under § 1983. They also assert there
was no violation of Kevin Brown’s constitutional rights,
and even if there was, Plaintiffs cannot establish any
alleged violation caused Brown’s death. Finally,
Defendants claim they are entitled to qualified
immunity.
Although causation is an element of Plaintiffs'
wrongful death claim, the claim is clearly pleaded as a §
1983 claim, not a claim for negligence. Thus,
Defendants' first argument does not warrant judgment
in their favor.
Defendants' second argument also fails to show
Defendants are entitled to judgment as a matter of law.
This argument goes to the first element of Plaintiffs'
wrongful death claim, which requires Plaintiffs to prove
there was a violation of their constitutional rights. See
Montano v. Orange Cnty., Tex., 842 F.3d 865, 882 (5th
Cir. 2015) (quoting Phillips ex rel. Phillips v. Monroe
Cty., Miss., 311 F.3d 369, 374 (5th Cir. 2002)) (“ ‘[A]
plaintiff seeking to recover on a wrongful death claim
under § 1983 must prove both the alleged constitutional

39a
deprivation required by § 1983 and the causal link
between the defendant’s unconstitutional acts or
omissions and the death of the victim, as required by
the state’s wrongful death statute.’ ”) Although
Defendants argue there was no violation of Plaintiffs'
constitutional rights, the above discussion with respect
to Plaintiffs' third claim for seizure beyond the scope of
the warrant refutes that argument. The presence of
genuine issues of material fact on the Franks claim and
the second claim for an overbroad warrant also leaves
open the possibility that the jury will find other
constitutional violations. Thus, Defendants are not
entitled to summary judgment on the ground there was
no constitutional violation here.
Defendants' third argument focuses on the
element of causation. “To meet this causation
requirement, the plaintiff must establish both
causation-in-fact and proximate causation.” Harper v.
City of Los Angeles, 533 F.3d 1010, 1026 (9th Cir. 2008)
Causation-in-fact is a factual determination, and
proximate cause presents a mixed question of law and
fact. Id. n.13.
Here, Defendants argue there is no evidence of
proximate cause. (Mem. of P. & A. in Supp. of Defs.'
Mot. at 23.) However, Rebecca Brown testified her
husband was not suicidal before he became a target of
the investigation into Claire Hough’s murder. (Pls.'
Opp'n to Defs.' Mot., Ex. 32 at 62.) She also testified he
became suicidal after that time. (Id.) Rebecca Brown
also testified she told Defendant Lambert she “was
worried that maybe her husband would kill himself”
after she found him “groggy” in bed with a bullet on the
floor next to the bed and a handwritten note he had
penned to her. (Id. at 62-63, 67-68.) Blakely, Rebecca’s
brother, also testified he twice informed Defendant

40a
Lambert he removed all the firearms from the Browns'
home because “it was clear to [him] that something bad
was happening” with Kevin and Rebecca Brown. (Defs.'
Mot., Ex. Q at 16.) Construed in Plaintiffs' favor, this
evidence raises a genuine issue of material fact on the
element of causation.
Defendants raise another argument on the
element of causation, namely that Brown’s suicide was
an intervening, superseding cause of Plaintiffs' injury
such that Defendant Lambert cannot be held liable for
wrongful death. However, in Castro v. County of Los
Angeles, 797 F.3d 654 (9th Cir. 2015), cert. denied, 137
S.Ct. 831 (2017), the Ninth Circuit stated “[a]
corrections officer will be held legally responsible for an
inmate’s injuries if the officer’s actions are a ‘moving
force’ behind a series of events that ultimately lead to a
foreseeable harm, even if other intervening causes
contributed to the harm.” Id. at 667 (citing Conn v. City
of Reno, 591 F.3d 1081, 1100 (9th Cir. 2010)) (emphasis
added). The court added, “[i]f reasonable persons could
differ over the question of foreseeability, that issue
should be left to the jury.” Id. (citing Conn, 591 F.3d at
1100). Here, there are numerous triable issues of
material fact on the element of causation, which
preclude entry of summary judgment.
Defendant’s final argument on the wrongful
death claim is Defendant Lambert is entitled to
qualified immunity. Specifically, Defendants argue the
right allegedly violated here was not clearly
established. According to Defendants, that right was
the “right to be free from investigation[.]” (Mem. of P.
& A. in Supp. of Defs.' Mot. at 21.) However, that
misstates the issue. The rights at issue here do not
include the “right to be free from investigation.”
Indeed, Plaintiffs agree there is no such right. Rather,

41a
the rights at issue here are Plaintiffs' rights under the
Fourth Amendment, and with respect to those rights,
“[t]he law regarding the permissible scope of a search
where items in a warrant have been particularly
described is hardly an uncertain and evolving area of
the law.” Creamer v. Porter, 754 F.2d 1311, 1319 (5th
Cir. 1985). See also Ellertson v. City of Mesa, No. CV15-00765-PHX-GMS, 2016 U.S. Dist. LEXIS 2366, at
*11-12, 2016 WL 97538 (D. Ariz. Jan. 8, 2016). (“The
scope of the right to search and seize property was
defined by the warrant and exceeding that scope
violates the clearly established rights of the Plaintiffs.
This principle has been long established.”). The same
may be said of the rights at issue in Plaintiffs' first
claim. Bettin v. Maricopa County, No. CIV 04-02980
PHX MEA, 2007 U.S. Dist. LEXIS 42979, at *54, 2007
WL 1713319 (D. Ariz. 2007) (“An officer who prepares a
plainly invalid warrant that a reasonably competent
officer should know was deficient is not entitled to
immunity, despite the approval of the warrant by a
magistrate.”) Thus, Defendants are not entitled to
qualified immunity from Plaintiffs' wrongful death
claim.16
III.
CONCLUSION
For these reasons, Defendants' motion for summary
judgment is granted in part and denied in part and
Plaintiffs' motion for partial summary judgment is
granted in part and denied in part. Specifically, the
Court grants Defendants' motion on Plaintiffs' fourth
claim for relief, grants Plaintiffs' motion on the third
claim for relief and denies the remainder of the
motions.17

42a
IT IS SO ORDERED.
Footnotes
1After the motion was submitted, Defendants filed a
Notice of Supplemental Authority in support of their
motion, which the Court has considered. (See Docket
No. 71.)
2The page number cited refers to the page number of
the exhibit.
3There is a dispute about the number of vaginal swabs
that were taken from the victim. In one report,
Evidence Technician Randy Gibson reported receiving
only one swab, but other reports document the
presence of “swabs.”
4A third individual, Mark Wilkinson, also was identified
from a sperm fraction on Claire’s underwear. Wilkinson
was Claire’s boyfriend but was eliminated as a suspect
as he was not in San Diego at the time of the murder.
He lived in Rhode Island. Claire also lived in Rhode
Island, and was visiting her grandparents in San Diego
at the time of her murder.
5There is no dispute about Tatro’s criminal history, and
it reflects a longstanding campaign of brutal violence
against women. The 1974 rape involved Tatro luring a
young woman into his car, placing her in the trunk and
then raping her at knifepoint while threatening to kill
her. (Pls.' Opp'n to Defs.' Mot., Ex. 26 at LAMBERT
004532-34.) The incident in La Mesa involved Mr. Tatro
offering to help a 16 year old girl who was having car
trouble, and once she was in his car, using a stun gun or
some other electrical device to shock her. (Id. at
LAMBERT 004310-11.) When Tatro was apprehended
for that crime, (he was found naked in the back of his
van with his wrists slit), the officers confiscated a

43a
pornographic magazine depicting photos, stories and
devices relating to bondage and sadomasochism as well
as a blood stained paring-type knife. (Id. at LAMBERT
004321.)
6Tatro died in 2011, leaving Brown as the only suspect.
7At oral argument, Plaintiffs' counsel represented
thirteen (13) officers may have participated in the
execution of the warrant, but there is no evidence to
that effect.
8Rebecca Brown is a high school teacher at Mater Dei
High School.
9As mentioned above, there is a dispute about when
Lambert had this conversation with Stam, namely
whether the conversation occurred before or after
Lambert submitted the application for the search
warrant. Construing the facts in the light most
favorable to Plaintiffs, the Court assumes this
conversation took place before Lambert submitted his
affidavit.
10Plaintiffs presented evidence of a significant
discrepancy in the miniscule number of sperm cells
found in the combined sperm fractions that resulted in
the identification of Brown relative to a typical male
ejaculate. According to Plaintiffs' expert, those
fractions “would be roughly equivalent to 158 sperm
cells, [when] ... [t]he average number of sperm cells in a
typical ejaculate, for comparison purposes, ranges from
200,000,000 – 600,000,000.” (Pls.' Opp'n to Defs.' Mot.,
Ex. 7 at 13.)
11Defendants point out that Brown made statements to
law enforcement and others that they considered
incriminating, including that he may have had sex with
a girl visiting from out of town around the time of the
murder who might have been named Claire. (Defs.'
Mot., Ex. U at 3-6.) However, those statements were

44a
made after the warrant issued and after the home was
searched, and thus were not included in the warrant
affidavit and not considered by the magistrate.
12Defendants also raise this argument in support of
their request for summary judgment on Plaintiffs' third
claim for relief. For the reasons stated above, the Court
rejects the argument as against that claim, as well.
13At oral argument, Plaintiffs' counsel clarified this
claim applies only to the seizure of physical items and
objects, such as papers and photographs. It does not
encompass the seizure of computers, cell phones or
other types of electronic media and devices.
14As an initial matter, Defendants assert in conclusory
fashion that Plaintiffs lack standing to challenge the
seizure and retention of items that did not belong to
either Kevin or Rebecca Brown. (See Mem. of P. & A. in
Supp. of Defs.' Mot. at 19, 20.) Plaintiffs addressed this
argument in their reply brief on their ex parte motion
to certify Defendants' appeal as frivolous, but
Defendants have not had an opportunity to respond to
that argument. Absent further briefing from
Defendants, the Court declines to resolve the issue
here. Defendants should be prepared to address the
issue prior to trial, however.
15California Penal Code § 1536 provides: “All property
or things taken on a warrant must be retained by the
officer in his custody, subject to the order of the court
to which he is required to return the proceedings before
him, or of any other court in which the offense in
respect to which the property of things taken is
triable.” Cal. Penal Code § 1536.
16Defendants' request for summary judgment on
Plaintiffs' sixth claim for deprivation of First and Fifth
Amendment rights to intimate familial association is
based on the same arguments presented on Plaintiffs'

45a
fifth claim. For the reasons set out above, the Court
rejects those arguments as against the sixth claim, as
well.
17The parties have fully briefed the issue of whether
Defendants' appeal of the Court’s previous order is
frivolous. Although this amended order changes the
Court’s ruling on Plaintiffs' fourth claim and amends
the analysis of Plaintiffs' first claim, the Court expects
Defendants will appeal this order. Should they do so,
and should Plaintiffs file another motion to certify the
appeal as frivolous, the Court would be inclined to deny
that motion.

46a
IN THE SUPERIOR COURT OF THE STATE OF
CALIFORNIA,
COUNTY OF SAN DIEGO

STATE OF
CALIFORNIA,)

AFFIDAVIT FOR
SEARCH WARRANT
(ss.

COUNTY OF SAN
DIEGO)

No.
___________________

I Michael LAMBERT, do on oath make
complaint, say and depose the following on this 3rd day
of January, 2014: that I have substantial probable cause
to believe and I do believe that I have cause to search:
LOCATION, PROPERTY, AND/OR PERSON[S]
TO BE SEARCHED
A.

The premises and all parts therein, including all
rooms, safes, storage areas, containers,
surrounding grounds, trash areas, garages and
outbuildings assigned to or part of the residence
located at 263 Vista Del Mar Court, Chula
Vista, California; further described as two
story, single family home. It has a beige stucco
exterior, with a brown tile roof, with a green
wood trim. The numbers “263” are in green
numbers facing south on the wall to the right of
the two car garage. The front door of the
residence is brown and faces east;

B.

C.

D.

47a
and,
For the person known as Kevin BROWN further
described as a white male, 61 years old, with a
date of birth of 03-24-1952, SSN: 560-96-3002
being 6’4” in height, weighing 198 pound and
believed to reside at the above residence;
A 2011 Ford pickup truck, California License
Plate 10925B1,
1 0925B1, currently registered to Kevin
and Rebecca BROWN.
A 2008 Honda Civic, California License Plate
6ELE632, currently registered to Kevin and
Rebecca BROWN.
ITEMS TO BE SEIZED

For the following property, to wit:
1.
From Kevin Brown referenced in section B
above: A blood sample drawn by a medical
professional in a medically approved manner
and/or mouths swabs for samples of skin/human
cells, to be used for DNA testing; and
2.
Papers, documents and effects tending to show
dominion and control over said premises,
including keys, lease, rental, or mortgage
agreements, utility bills, canceled mail,
prescription bottles, fingerprints, clothing,
photographs, photographic negatives, image
disks, memory sticks, undeveloped film,
homemade
videotapes,
digital
images
handwritings, documents and effects bearing a
form of identification such as a person’s name,
photograph, Social Security number or driver’s
license number; and to intercept incoming phone
calls, either landline or cellular, during execution
of the warrant, to view any video tapes seized

3.

48a
pursuant to the warrant.
To seize, view and forensically examine any
computing or data processing devices, including
cellular telephones capable of storing images,
smart phones and tablet devices and associated
peripheral equipment such as Computer or data
processing devices and associated peripheral
equipment such as computer units, keyboards,
central processing units, external drives and/or
external storage (flash/thumb drives), tape
and/or disk, terminals and/or video display units
and/or other receiving devices and peripheral
equipments such as printers, automatic dialers,
modems, acoustic couplers, associated telephone
sets, and any other controlling device(s), any
computer or data processing software and the
device(s) on which such software is stored such
as hard disks, floppy disks, JAZ disks, ZIP disks,
integral RAM or ROM units, cassette tapes,
magnetic tape reels, any other permanent or
transient storage devices, any computing or data
processing literature, printed or otherwise, and
all manuals for the operation of the computer
and software, together with all handwritten
notes or printed material describing the
operation of the computer, and confidential
password lists to enter secured files; and in
addition to seizing, forensically examine the
listed items for evidence of monitoring the
progress of the investigation of the murders of
Claire HOUGH and/or Barbara NANTAIS and
anything relating to the name Ronald C. TATRO
or James ALT; to include e-mail, Internet
history, documents, journals, deleted files or any
other evidence related to the murders of Claire

3.

4.
5.

6.

7.

8.

9.

49a
HOUGH and/or Barbara NANTAIS and
anything relating to the names Ronald C.
TATRO or James ALT and anything relating to
the items describe in item 7 (seven) listed below
in this warrant; Photographs, social security
number, or driver’s license number which tend
to show dominion and control over said
computer, cellular telephone, smart phone or
tablet device; and to have those devices
forensically examined.
Newspaper clippings or any other print news
relating to the murders of Claire HOUGH and/or
Barbara NANTAIS.
Address books, diaries/joumals, hand written in
nature.
San Diego Police Department Crime Case
Reports and/or Arrest Reports relating to
Sexual Assaults.
Magazine, videos, electronic files, books,
photographs or other written or photographic
evidence depicting or related to teenage or
preteen pornography, rape, bondage, and
sadomasochism.
Receipts for storage facilities including offsite
storage, safety deposit boxes and “cloud”
storage.
Photographs, disposable cameras, negatives,
photographic film that relate to Claire HOUGH,
Ronald TATRO, James ALT, or Barbara
NANTAIS.
A straw or cloth, long handled handbag
belonging to HOUGH.

50a
SUMMARY OF SEARCH WARRANT REQUEST
I am requesting the above listed items to be
seized in an attempt to find evidence of Kevin
BROWNS involvement in file 1984 murder of Claire
HOUGH, or his knowledge of co-conspirator Ronald
TATRO and TATRO’S involvement in the murder of
Claire HOUGH. I seek to find evidence that Kevin
BROWN is following this case, and another similar 1978
murder of a teenage girl Barbara NANTAIS.
AFFIANT’S QUALIFICATIONS
I am a peace officer employed by the San Diego
Police Department (SDPD) and have been so employed
for about 24 years. I have been a detective for 19 years,
and I am currently assigned to the Homicide Unit and
have been so for 9 years, 11 months. During my career
as a police officer, I have taken part in the investigation
of over 250 violent crimes, including robberies,
kidnapping, extortion, witness intimidation, drive-by
shootings, assaults with deadly weapons, violent sexual
assaults, attempted murder, and homicides. While in
the Police Academy and subsequent formal training, I
received training in the investigation of assault with
deadly weapons, attempted murder investigation, and
homicide investigation. I have attended a 40 hour
Homicide Investigation course. Throughout the course
of my investigations, I have spoken with numerous
victims, witnesses, and suspects of said crimes.
Through these discussions as well as through
discussions with other detectives, I have learned the
manner and methods employed by persons involved in
these types of crimes.

51a
INTRODUCTION
This case involves the 1984 murder of 14 year old
Claire HOUGH. She was found on Torrey Pines State
Beach. HOUGH had been strangled to death, sexually
assaulted, and mutilated.
The case has been investigated several times
over the course of nearly 30 years and in November of
2012, two male suspects were identified via DNA
results. Kevin BROWN’S sperm was found on vaginal
swabs collected from HOUGH at autopsy and Ronald
TATRO’S blood and DNA was found on HOUGH’S
clothing.
This warrant is an attempt to obtain information
to link BROWN and TATRO as the perpetrators,
acting in concert, in the commission of the sexual
assault, mutilation, and murder of Claire HOUGH.
PROBABLE CAUSE
During the course of my duties, I read the San
Diego Police Homicide case file of Claire HOUGH in its
entirety (San Diego Police Case number 84-059427).
The case file includes, but is not limited to, San Diego
Police patrol officer reports, San Diego Police
investigator reports, San Diego Police Crime Lab
reports, San Diego Police diagrams, photographs and
San Diego County Medical Examiner reports. I have
learned the following information based upon my
discussions with the named witnesses or by having read
the reports of or talked with other SDPD officers who
have spoken directly with the named witness. All
references to dates refer to the current calendar year
unless otherwise stated and all law enforcement officers
referred to are from the San Diego Police Department

52a
unless otherwise noted.
INITIAL INVESTIGATION 1984
According to a report written by San Diego
Police Officer K. WELLBORN, #2034, dated August
24, 1984, Claire HOUGH’S dead body was discovered
on the beach, between Lifeguard Towers 4 and 5, at
Torrey Pines State Beach by local can collector Wallace
WHEELER, on Friday, August 24, 1984, at
approximately 0430 hours. Upon his discovery,
WHEELER walked to a Circle K convenience store
located at 2302 Mount Carmel Road, San Diego, CA
(now Carmel Valley Road) to report his findings. The
Circle K is slightly less than one mile from the murder
scene. Responding Officer WELLBORN, met with
WHEELER at the Circle K and WHEELER directed
them to the location of HOUGH’S body. Upon viewing
HOUGH’S body he found HOUGH had no carotid
pulse. There were red stains around the collar of
HOUGH’S shirt that appeared to be blood and she was
lying on a white towel. WELLBORN also made note of
a plastic radio and a pair of shoes next to her body.
Officer WELLBORN believed HOUGH had been
murdered.
According to a report completed by Detective R.
A. CAREY, #1143, on August 24, 1984, SDPD Homicide
Detectives and the San Diego Police Crime Lab
responded to the homicide scene, located at Torrey
Pines State Beach, on the beach/sand, between
Lifeguard Towers #4 and #5, at what was then referred
to as the “South Bridge”. According to Detective
CAREY, the body of HOUGH (14 years old) was found
lying on her side. HOUGH was wearing Levi’s, a pink
long sleeve shirt, a blue bandana tied around her hair,

53a
and she was found lying on a blood soaked towel. Her
pants were unbuttoned and unzipped, but pulled up.
Her panties were on, but rolled down below her
buttocks and her “Levi” jeans were tom at the zipper
down the seam. HOUGH’S jeans were tom from the
bottom of the zipper to the inseam of the crotch area.
Her throat had been cut and there were visible blunt
force trauma injuries to her face.
According to a report completed by San Diego
Police Evidence Technician Randy E. Gibson #8617
(dated on August 28, 1984) he arrived on Torrey Pines
State Beach at 0720 hours and he began taking
photographs and collecting evidence. A total of 32 items
of evidence are listed in his initial report. These items
were impounded on property tag 325557. Gibson lists
the following items as some of the evidence he
impounded on property tag 325557:
•
•
•
•

AM/FM Cassette tape recorder found on the
towel HOUGH was laying on
(1) Pair of sandals found on the towel Hough was
laying on
(1) Towel that HOUGH was laying on
(1) Pack of Marlbough cigarettes found on the
towel HOUGH was lying on

•

(1) Matchbook with the name “Circle K” on it

•

was found on the towel HOUGH was lying on
Numerous cigarette butts were found in the
general area of HOUGH’S body

According to a Medical Examiners report
completed by Dr. M.A. Clark, HOUGH’S body was
removed from the crime scene on August 24, 1984 and
transported to the San Diego County Medical

54a
Examiner’s office for the purpose of an autopsy. The
autopsy was conducted on August 25, 1984.
MA. CLARK, M.D., Pathologist for the San
Diego County Coroner’s Office conducted the autopsy.
According to Dr. CLARK’s report dated September 5,
1984, Dr. Clark concluded that the cause of death was
manual strangulation. HOUGH’S injuries included a
deep laceration to her throat, there was evidence of
blunt force injuries to her face, her entire left breast
had been amputated, there was a laceration to the
vagina and her mouth was filled with sand.
According to San Diego Police Crime Lab
Evidence Technician Randy E. Gibson’s initial report
(dated August 28, 1984) he was present at the autopsy
on August 24, 1984 at 1015 hours. While at the autopsy
he took custody of several items, including the
following, and impounded them on property tag 325557;
•

(1) Pair of blue jeans, brand name “Levis.” In the
report Gibson wrote: “This item has red stains
and it should be noted that the seam below the
zipper has been ripped for a length of
approximately 3 inches.”

•

(1) Pink bandana that has been used for a belt, In
the report Gibson wrote: “This item is tied in a
knot and has been cut. This item also has red
stains.”

•

(1) Pair of white panties with blue hearts. In the
report Gibson wrote: “This item has red stains.”

•

(1) Pink blouse, brand name “Jean Pierre.” In

•

55a
the report Gibson wrote: This item has red stains
and a small cut or tear over the left breast
pocket
(1) Vaginal swab

On the same morning of the discovery of
HOUGH’S body, her: grandparents reported her
missing (San Diego Police Department Missing Person
Case Number 84-059190). HOUGH’S grandfather,
Samuel HOUGH, was the last person to see her at
home about 9 p.m. on Thursday, August 23, 1984, just
before he went to bed. On Friday, August 24, 1984, at
about 9 a.m, her grandparents checked and discovered
her missing. The officers were informed HOUGH was
visiting from the state of Rhode Island and was set to
return home on August 28, 1984.
According to a report dated August 27, 1984
completed by San Diego Police Homicide Investigator
R.D. Jordan #1490 he went to Samuel and Margaret
HOUGH’S home on August 25, 1984 with an autopsy
photo of the young girl found on the beach. Samuel and
Margaret HOUGH viewed the photograph and were
able to positively identify the homicide victim as Claire
HOUGH.
SDPD
Homicide
Investigators
began
interviewing friends, family members, and potential
witnesses.
According to a report dated August 30, 1984 by
San Diego Police Detective Gil Padillo, #1716, he went
to the Circle K on August 24, 1984 and interviewed
employee, Terri VANDERHOFF. VANDERHOFF
was the Circle K employee working the evening before
HOUGH’S body was discovered on the beach. The
Circle K is around the coma: from HOUGH’S
grandparent’s home and was along the route to the

56a
beach where she was ultimately found murdered.
VANDRHOFF stated she recalled a white female,
approximately 20 years old, 5’7” tall, weighing about
115 pounds, wearing a short sleeved pink top and Levis
jeans, coming into the store between 8:30 p.m. to 9:00
p.m. According to Detective Padillo’s report the
clothing described by VANDERHOFF was similar to
the clothing worn by HOUGH when her body was
discovered. VANDERHOFF additionally described
HOUGH as carrying a straw type handbag.
VANDERHOFF recalled HOUGH purchased a pack of
Marlboro Lights cigarettes and requesting a book of
matches. VANDERHOFF stated HOUGH appeared to
be alone and that she did not see HOUGH get into a
vehicle after she exited the store.
According to a report dated September 14, 1984,
by San Diego Police Detective R.D. Jordan he
interviewed Francesca HOLLAND on September 13,
1984. HOLLAND is an acquaintance of Samuel and
Margaret HOUGH. HOLLAND stated she met Claire
HOUGH one time on the Tuesday prior to the murder
(Tuesday, August 23, 1984). Claire HOUGH’S
grandmother arranged for the girls to spend the day
together because Claire HOUGH complained about
being lonely. Claire HOUGH’S grandmother dropped
Claire HOUGH off at HOLLAND’S house. Claire
HOUGH told HOLLAND that she was the first person
she met since coming to San Diego. Claire HOUGH
complained about not meeting anyone in San Diego.
HOLLAND said Claire HOUGH appeared and acted
older than her age and that she was very outgoing.
HOLLAND stated Claire HOUGH admitted to liking
marijuana and that she liked to smoke it outside and
look at nature the way it is suppose to be looked at.
This was the only time HOLLAND was with Claire

57a
HOUGH. HOLLAND provided no additional
information during this interview.
According to a report dated September 4, 1984
completed by San Diego Police Detective Gil
PADILLO, Detective PADILLO interviewed James
PEEBLAS and Charles JOHNSON on August 30, 1984.
Both men were together on the beach the night before
HOUGH’S body was found. Both men stated there was
a group of young people hanging out near the bridge at
about 9:30 p.m. Both men stated the group was males
and females, between 15-20 years old. They could
provide no additional descriptions and the group was
never indentified.
According to a report dated September 4, 1984
completed by Detective Gil PADILLO, Detective
PADILLO interviewed Gregory FEDERICO on
August 30, 1984. FEDERICO told Detective
PADILLO that on August 23, 1984 he was near
Lifeguard Tower #4 when a black male or white male
with a dark complexion, 6 feet tall, 28-30 years old
approached him. FEDERICO noticed the man had a
knife in the front of his waistband and was acting
strangely. FEDERICO could provide no additional
details.
According to a report dated, August 31, 1984,
completed by San Diego Police Detective R. CAREY,
Detective CAREY interviewed James LUCE. LUCE
told Detective CAREY that he was on the beach at the
same time as FEDERICO and noticed nothing unusual
the night before HOUGH’S body was found. LUCE
told Detective CAREY about a black male with the
knife, but believed it was a different night than
FEDERICO recalled. According to the report the
description of the black male was similar to the one
provided by FEDERICO and the black male remains

58a
unidentified.
Following
the
initial
investigation,
no
eyewitnesses were identified, few leads were
developed, and the case went cold. This was primarily
due to a lack of witnesses, the very limited DNA
technology available at the time, and the initial inability
to develop a DNA profile from biological evidence
collected from the crime scene and at autopsy.
COLD CASE REVISITED
Throughout the years this case was revisited by
various San Diego Police Department Cold Case
Homicide Detectives. On March 15, 1996, San Diego
Police Department Lieutenant Jim COLLINS (now
retired) authored a letter to Mary Ellen O’TOOLE of
the FBI Academy’s Investigative Support Unit to
request assistance in obtaining a possible suspect
profile. The letter helps establish the circumstances of
Claire HOUGH’S visit to San Diego, a clearer timeline
of Claire HOUGH’S time in San Diego, and information
to provide a better understanding of who Claire was.
Lieutenant Jim COLLINS wrote in the letter
that the information contained within it was obtained
via interviews conducted with Claire HOUGH’S
parents, Samuel and Penelope HOUGH, Claire
HOUGH’S grandmother, Margaret HOUGH (now
deceased) and Claire HOUGH’S best friend, Kimberly
JAMER (maiden name BROCK) and was obtained
about 12 years after Claire HOUGH’S murder. The
following is some of the information documented in the
letter:
•

Claire HOUGH arrived in San Diego about ten
days prior to her demise. She travelled to San

•

•
•

•

59a
Diego with her older brother Matthew HOUGH
and her best friend Kimberly JAMER.
After several days Matthew HOUGH left his
grandparents home and spent the remainder of
his vacation with other family members in
northern California.
Kim JAMER and Claire HOUGH were
inseparable while in San Diego.
Tuesday, August 21, 1984, JAMER returned
home to the state of Rhode Island; Two days
before Claire last seen alive. According to Claire
HOUGH’S grandmother, Claire HOUGH talked
about wanting to go home early, because she was
bored after JAMER returned to Rhode Island.
Claire HOUGH complained about not having
anyone to talk to because she had not met
anyone while in San Diego.
Thursday, August 23, 1984, Claire HOUGH and
her grandparents had gone to the zoo in the
morning and returned to their home during the
mid-afternoon.
According
to
HOUGH’S
grandparents, Claire then went to the beach
alone. HOUGH’S grandparents stated Claire
went to the beach almost every day while in San
Diego. Claire HOUGH returned from the beach
at about 8:30 p.m. and she talked with her
grandparents for a short time before going to her
room, presumably for bed. Claire HOUGH’S
grandmother returned home from a meeting at
about 9:30 p.m. and saw that the door to Claire
HOUGH’S room was closed and she assumed
Claire HOUGH was in bed. The following
morning, Claire HOUGH’S grandparents
discovered she was not at the home and they

60a
contacted police to file a missing person’s report.
Lieutenant Collins wrote information regarding
Claire HOUGH and her lifestyle in this letter.
Lieutenant Collins wrote Claire HOUGH was sexually
active with boyfriends prior to her murder; however,
both JAMER and Claire HOUGH’S parents believed
Claire HOUGH would not have a sexual encounter with
anyone whom she didn’t have an established
relationship. Lieutenant Collins wrote it was common
for Claire HOUGH to go out alone to the bay area near
her home in Rhode Island at night to listen to music;
however, both JAMER and Claire HOUGH’S parents
believed Claire HOUGH would never go out to meet an
unknown person alone on the beach.
Lieutenant Collins wrote that while in San Diego
JAMER and Claire HOUGH went to the beach daily.
They would lie on the sand close to the bridge. The
bridge provided shade to keep cool.
In the letter, Lieutenant Collins also made
reference to the 1978 murder of 15 year old, Barbara
NANTAIS, a female who was killed a short distance
away from where Claire HOUGH’S body was found
(San Diego Police Department Case Number 78-57316).
NANTAIS was found nude and murdered on the same
beach as HOUGH. According to the case file
NANTAIS died of manual strangulation and her right
nipple was almost completely severed off.
This concluded the information in the letter.
The murder case of Claire HOUGH remained
cold for a lengthy period of time. The San Diego Police
Department Cold Case Team routinely reviewed this
case for new leads including the review of the evidence
for potential updated procedures and advancements in
DNA testing.

61a
DNA
I learned after talking with SDPD Lab
Criminalist David CORNACCHIA, #8815, that DNA is
short for deoxyribonucleic acid. DNA molecules are
contained within human cells and hold the genetic
‘coding’ that makes each of us individually distinctive
(except identical twins). DNA technology is capable of
distinguishing between human beings to an extent that
typically the probability of random person having the
same profile as the questioned profile is many times
greater than the population of the planet.
On November 22, 2013 San Diego Police
Criminalist David Comacchia #8815 told me there are
several ways current DNA testing can provide
information:
1. Male vs. Female: DNA testing has the ability to
distinguish male from female DNA.
2. Blood: DNA can be extracted from blood and is
considered a Non Sperm Fraction source.
3. Sperm Fraction: DNA is extracted from sperm
cells.
4. Non Sperm Fraction (Human Cells): DNA
testing has the ability to identify a person
through human cells. These cells can be from
either a male or a female.
According to Criminalist Cornacchia, during the
DNA testing process, he first identifies if enough DNA
is available for testing. Once he deems the amount;
sufficient, he develops a “profile.” The “profile” consists
of 16 individual and unique markers of an individual
(except identical twins). Criminalist Cornacchia
explained he then uploads all 16 markers of the

62a
unknown individual into the Combined DNA Index
System, also known as CODIS. CODIS is a local, State,
and National database that contains DNA profiles from
criminal offenders, crime scenes, and missing persons.
Uploading a profile to CODIS, allows profiles already
identified by crime laboratories to be compared to
profiles uploaded by other local, State, and Federal law
enforcement agencies thus linking individuals to crimes
scenes or identifying individuals.
COLD CASE INVESTIGATION 2012 TO
CURRENT
In July of 2012, San Diego Police Detective L.
RYDALCH #3787 (now retired) was assigned to the
San Diego Police Department Cold Case Team. He
submitted a new lab request to once again examine
physical evidence in the case, with the hopes that new
DNA technology would yield positive results. He
requested the San Diego Police Crime Laboratory to
examine the following items collected and impounded
during the initial investigation in this case for DNA
belonging to someone other than Claire HOUGH:
•
•
•

Vaginal Swabs
Towel
Claire HOUGH’S Clothing

In
November
of
2012,
Criminalist
CORNACCHIA completed the examination of the
above listed evidence. According to CORNACCHIA
the first step is to develop a DNA profile for Claire
HOUGH. CORNACCHIA stated this is done in order
to separate HOUGH’S known DNA profile from the
unknown DNA profile.

63a
According to David CORNACCHIA’S report
dated NOVEMBER 30, 2012, he identified three (3)
unknown male DNA profiles on the following four items
of evidence:
1. Non Sperm Fraction: Blood stains on Claire
HOUGH’S “Levi’s” jeans
2. Non Sperm Fraction: Zipper flap of Claire
HOUGH’S tom “Levi’s” jeans
3. Sperm Fraction: Crotch of Claire HOUGH’ S
underwear underneath her panty liner
4. Sperm Fraction: Claire HOUGH’S vaginal swabs
RONALD TATRO: DNA FOUND ON HOUGH’S iN
TWO LOCATIONS
During
Criminalist
CORNACCHIA’S
examination of the above listed items he determined
numerous stains on the blue jeans worn by Claire
HOUGH were blood. CORNACCHIA examined the
samples of the blood (#1 Non Sperm Fraction from
above) for DNA from and he developed an unknown
male profile. CORNACCHIA then uploaded the
unknown male profile into the California Combined
DNA Index System (CODIS) database for comparison.
The system compared this unknown male profile to
others in CODIS and identified the profile as belonging
to Ronald Clyde TATRO, California Criminal
Identification Number A07234886.
According to CORNACCHIA’S report dated
November 30, 2012, he also developed an unknown male
profile from another area of area of HOUGH’S pants.
This DNA (#2 - Non Sperm Fraction from above) was

64a
found in the area of the tom zipper of HOUGH’S
“Levis” jeans. This area is significant because according
to a crime lab report written by San Diego Police
Evidence Technician Randy E. Gibson #8617 (dated on
August 28, 1984) HOUGH’S pants were tom from the
area of the zipper, down the seam about 3 inches.
Criminalist CORNACCHIA uploaded the DNA found
by the zipper into the Combined DNA Index System
(CODIS) database for comparison. The system
compared this unknown male profile to others in
CODIS and identified the profile as belonging to
Ronald
Clyde
TATRO,
California
Criminal
Identification Number A.07234886.
Myself and San Diego Police Detective Lori
Adams #5295 conducted research and criminal history
inquiries into Ronald TATRO. We learned the
following:
•
•

•

•

According to TATRO’S California Criminal
Identification Information he was 40 years old at
the time of Claire HOUGH’S murder.
According to his California and Arkansas
Criminal Identification Information, and San
Diego Sex Registrant files TATRO was on
parole, at the time of the HOUGH murder, for a
1974 First Degree rape conviction in Hot
Springs, Arkansas.
According to an email confirmation dated
November 26, 2012, from Angie FENLEY, of
the City of Hot Springs Arkansas Human
Resources Department, TATRO was a Hot
Springs, Arkansas Police Officer from April 1971
to July 1972.
According to TATRO’S Indianan Criminal

•

65a
Information he was arrested and convicted in
Plainfield, Illinois for battery in May 1974.
According to TATRO’S California Criminal
Information he was arrested and convicted in
June 1985 for attempted rape in La Mesa,
California.

In conducting research into Ronald TATRO,
Detective ADAMS discovered that TATRO was a
parson of interest in the February 1984 San Diego
murder of prostitute Carole DEFLEICE, however, he
was not charged with the murder of DEFLEICE and
that case remains unsolved.
According to the Arkansas Court Transcripts
dated March 31, 1975, TATRO pled guilty to rape in the
1st degree in Hot Springs. TATRO was initially
sentenced to 40 years in prison for this conviction.
Upon reading the court transcripts, Detective ADAMS
learned that TATRO admitted during this hearing that
he enticed a female store clerk out of the store under
the guise of helping him with his disabled vehicle. Once
outside, TATRO admitted he hit the female over the
head, put her in the trunk of the car, and drove to a
secluded area where he raped her at knifepoint.
According to an email received on November 29,
2012, from the Arkansas Department of Corrections,
TATRO served seven years in prison and was paroled
to San Diego, California on April 1, 1982.
According to Ronald TATRO’S California
Criminal Information he was sentenced to three years
in prison for a 1985 conviction for attempted rape of a
teenage girl in La Mesa, California. Upon reviewing the
1985 District Attorney file and the crime reports
completed by the La Mesa Police Department
(L.M.P.D. Case Number 85-3989), dated June 25, 1985,

66a
San Diego Police Detective ADAMS learned that
TATRO picked up a teenage girl who was having car
trouble and offered her a ride. Once inside his van,
TATRO attempted to subdue the teenage girl with a
stun gun. The girl fought back and screamed. TATRO
allowed her to exit the van. TATRO was arrested for
this case on June 25, 1985.
According to the State of Tennessee Office of
Vital Records, Ronald TATRO is now deceased. He
died on August 25, 2011 in Hawkins County, Tennessee,
MARK WILKINSON: SPERM DNA FOUND ON
HOUGH’S UNDER
UNDERWEAR
WEAR UNDERNEATH A
PANTY LINER
According to: Criminalist CORNNACHIA when
examining the underwear worn by Claire HOUGH, he
identified another unknown male’s DNA from a sperm
fraction present on the crotch area of the underwear,
underneath
a
panty
liner.
According
to
CORNNACHIA the only DNA on the panty liner
belongs to Claire HOUGH. CORNNACHIA told me,
the amount of DNA found was minimal. He stated
sperm cells can remain on clothing even after being
washed. I believed the sperm fraction discovered could
have been from Claire HOUGH’S most recent
hometown boyfriend. I learned, after re-interviewing
Claire HOUGH’S best friend JAMER, that Claire
HOUGH’S boyfriend at the time of her murder was
Mark WILKINSON and he resided in Rhode Island at
the time of the murder. According to JAMER,
WILKINSON did not travel to San Diego with Claire
HOUGH.
I
learned
from
Kim
JAMER
that
WILKINSON’S birthday was 10-17-1965. I conducted a

67a
search for WILKINSON in an attempt to locate him.
During this search, utilizing CLEAR, a Public Records
database, I learned WILKINSON was deceased. He
died on May 7, 2009. After learning of WILKINSON’S
death, I spoke to CORNACCHIA and inquired as to
which family member of WILKINSON I should
attempt to collect DNA from in order to identify the
unknown male’s DNA. I was informed I should attempt
to collect WILKINSON’S mother’s DNA.
After conducting a search, I learned Mark
WILKINSON’S mother, Dorothy WILKINSON, was
currently residing in Pasadena, Texas with her
Daughter Julia LAVERY. I made telephone contact
with LAVERY where I requested she speak to her
mother and explained I wanted to collect her DNA to
compare to the DNA in this case. I soon after received a
call from LAVERY and was informed her mother was
willing to submit a sample.
I then called the Pasadena Police Department’s
Cold Case Homicide Unit and spoke to Detective Ed
ROGGE. He agreed to meet with Dorothy
WILKINSON, collect a DNA swab and mail that swab
to me in San Diego. On October 14, 2013, Detective
ROGGE met with Julia LAVERY and Dorothy
WILKINSON. He presented WILKINSON with
Consent to Collect DNA Sample form. WILKINSON
signed the form and her daughter LAVERY signed as
a witness to the collection. The swab was collected my
Detective ROGGE and it was shipped to me via FedEx.
After receiving the swabs, I submitted a lab request to
CORNACCHIA to process the swab and compare the
developed profile to the unknown male DNA on Claire
HOUGH’S underwear. I was notified by David
CORNACCHIA
on
October
31,
2013,
that
WILKINSON’S DNA matched the unknown sperm

68a
fraction from Claire HOUGH’S underwear underneath
the panty liner.
KEVIN BROWN: SPERM DNA FOUND IN
HOUGH’S VAGINA
According to Criminalist CORNACCHIA’S
report dated November 30, 2012, he also conducted
DNA testing on the vaginal swab collected from Claire
HOUGH at the time of her autopsy. CORNACCHIA
reported that he developed an unknown male profile
from the sperm fractions collected from the swabs.
CORNACCHIA uploaded this unknown male profile
into the local CODIS database and a match to a profile
of an individual named Kevin BROWN was identified.
According to CORNACCHIA’S report, BROWN is a
former San Diego Police Department Laboratory
employee. CORNACCHIA told me that Kevin
BROWN’S DNA profile is in the local CODIS database
because of his employment in the crime lab.
CORNACCHIA told me San Diego Crime lab
employee’s DNA profiles are uploaded into CODIS to
identify potential cross contamination issues.
According to CORNACCHIA, the number of
sperm cells present on the swabs was low. I was
informed by CORNACCHIA there were several
reasons for theses low numbers.
1. One reason, the cell may have degraded over
time, meaning they may have been deposited
inside HOUGH 24 to 48 hours prior to her
murder.
2. Another a reason for the low numbers may be
BROWN failed to achieve a full ejaculation
inside HOUGH, making the discharge likely

69a
contemporaneous to the incident
3. A third reason is BROWN could have a low
sperm count, accounting for the lower numbers,
also
making
the
discharge
likely
contemporaneous to the incident.
Upon discovering BROWN’S DNA from the
sperm fractions on the vaginal swabs, a thorough
inspection of the lab case files and records pertaining to
this case was conducted by San Diego Police
Department Lab Manager Jennifer SHEN, #8180.
SHEN advised that BROWN had no known contact
with the evidence relating to this case and was never
assigned to work with any evidence relating to this
investigation.
Upon identifying BROWN’S DNA in this case a
meeting occurred between Lab supervision personnel
and Cold Case Investigators. Cold Case Investigators
were informed by San Diego Police Department Lab
Manager, Jennifer SHEN, BROWN had no access to
the evidence in the HOUGH murder and stated that
cross DNA contamination is not possible. During this
meeting Lab Supervisor Patrick O’DONNELL stated
he remembered BROWN had a reputation of unusual
behavior during the time of his employment. I
determined additional follow up interviews needed to
be conducted with former and current co-workers of
Kevin BROWNS at the San Diego Police Department
Lab.
2013 COLD CASE INVESTIGATION
San Diego Police D/Sergeant F. HOERMAN
#3618 contacted the San Diego Police Department
Payroll and Human Resources Unit. Sergeant

70a
HOERMAN learned that Kevin BROWN was
employed as a Criminalist for the San Diego Police
Department from 1982 through 2002. Sergeant
HOERMAN obtained BROWN’S application of
employment from the Human Resources Department.
From this application I learned his date of birth is
March 24, 1952, his California Driver’s License number
is E0064068 and his social security number is 560-963002. Sergeant HOERMAN obtained several of
BROWN’S employee photos, which were taken over
the 20 years of his employment with the police
department.
According to the Human Resources records
obtained by Sergeant HOERMAN, I learned Kevin
BROWN lists Rebecca BROWN as his spouse.
Sergeant HOERMAN obtained copies of
BROWN’S timecard for the weeks near the date of
Claire HOUGH’S murder. Timecard records indicate
BROWN worked 40 hours the week of the murder
including eight hours on Thursday, August 23, 1984
and eight hours on Friday, August 24, 1984. It also
revealed that BROWN took three hours of vacation
time on Monday, August 27, 1984.
During my investigation, I determined it would
be beneficial to speak with Kimberly JAMER in an
effort to determine a clear time line of events while
Claire HOUGH was alive, to identify potential new
witnesses and to better understand who Claire
HOUGH was. On March 19, 2013. I called and spoke
with JAMER. Her current residence and phone
number are in Minnesota. I explained I was an
investigator assigned to the murder of her friend Claire
HOUGH. I verified some information regarding her
trip to San Diego, California with Claire HOUGH and
informed her I wanted to speak to her in person.

71a
JAMER agreed to meet with me and told me she was
happy that the police department had not forgotten
about her friend’s murder.
On May 3, 2013, I met with JAMER at her home
in Minnesota. I explained the purpose of my interview
was to determine what she and Claire HOUGH did
while in San Diego together. I also explained that I
needed to find out if they met anyone, particularly
males, during this time. JAMER told me the only
people they met were some young males and females
who were near their same age. JAMER stated they
met them while on the beach and it was mostly in
passing. They never socialized with them other than
short, non-specific conversations.
JAMER stated they never met any older men,
nor would they have been interested in talking with
older men. I presented JAMER with photographs of
both Kevin BROWN and Ronald TATRO. These
photographs were taken of BROWN and TATRO
around the same time of Claire HOUGH’S murder and
therefore depicted them as they would have looked
during that time. Kevin BROWN was 32 years old and
Ronald TATRO was 41 years old at the time of Claire
HOUGH’S murder. I asked if she recalled seeing either
man. She stated they never met them and if they had,
they would have nothing to do with them because they
were too old. I also presented a photograph of a van
TATRO was known to drive during the time when the
homicide occurred. JAMER stated she does not recall
ever seeing that van.
I told JAMER I understood Claire HOUGH to
be sexually active and asked if there was any way she
would have had sex with either of the men in the
photos. JAMER informed me Claire HOUGH would
have never been attracted to either man and she would

72a
have never cheated on her boyfriend Mark
WILKINSON. JAMER was confident Claire HOUGH
would have told her if she cheated on her boyfriend,
because they shared everything together.
While reviewing original reports regarding this
homicide, I read an interview of Francesca HOLLAND
conducted on September 13, 1984 by Detective R. D.
JORDAN. The report indicates HOLLAND spent a
portion of Tuesday, August 21, 1984 with Claire
HOUGH. This was the Tuesday prior to Claire
HOUGH’S murder. After reviewing this report, I
decided HOLLAND should be re-interviewed to
confirm details of their time together. The report was
not clear as to if they met with anyone else during this
visit or what time the visit ended.
On July 10, 2013, I met with HOLLAND
(married name MORRIS) in her home to ask additional
follow up questions to her first interview. HOLLAND
told me she met Claire HOUGH through her then
boyfriend, Ben HOUGH. Ben HOUGH was related to
the HOUGH family and he requested HOLLAND
spend the day with Claire HOUGH because CLAIRE
was bored and homesick. HOLLAND told me she spent
the day with Claire HOUGH (August 21, 1984) and
they went to Sea Grove Park and Flower Hill Shopping
Center (both in the Del Mar area of San Diego) to hang
out. Claire HOUGH told HOLLAND she was upset she
hadn’t met anyone in San Diego since her arrival. Claire
HOUGH told HOLLAND she was bored staying at her
grandparent’s house. According to HOLLAND, they
spent the better part of the afternoon together having
lunch and talking. HOLLAND estimates they were
together from late morning through late afternoon,
until about 5 p.m. After visiting together, each of the
girls went their own way home. Claire HOUGH and

73a
HOLLAND had no further contact after this day.
INTERVIEWS OF SAN DIEGO POLICE LAB
EMPLOYEES
I began conducting interviews with lab
employees who worked with and around Kevin
BROWN. I began by first interviewing Patrick
O’DONNELL on February 19, 2013. O’DONNELL
stated he recalled working around BROWN and knew
BROWN had the reputation of frequenting the local
strip clubs. O’DONNELL further stated BROWN was
known to boast about going to the clubs. O’DONNELL
stated he never associated with BROWN outside of
work and stated BROWN’S reputation was only rumor
to him. O’DONNELL suggested I speak to other lab
employees who worked around BROWN and referred
me to current lab employees Bill LOZNYCKY, Gene
LA CHIMIA, and retired lab employee Annette
PEER.
I met with LA CHIMIA on February 21, 2013.
LA CHIMIA stated he remembers BROWN because
they worked together in the Narcotics Lab. LA
CHIMIA started working for the San Diego Police
Department in 1987. BROWN was already working in
the lab. LA CHIMIA stated he recalled BROWN’S
reputation. He told me he recalled BROWN often
talking about going to the strip clubs. LA CHIMIA
stated BROWN bragged about it to everyone. LA
CHIMIA stated he recalled a time when BROWN
talked about getting involved in a photo shoot at one of
the local strip clubs that was raided by the San Diego
Police Department Vice Unit. LA CHIMIA told me he
never learned of what happened with that raid and that
BROWN continued working for the police department

74a
for several years later. LA CHIMIA stated he recalled
BROWN eventually getting married, but did not recall
the year. He stated BROWN never bragged about
going to the strip club after he got married.
On March 12, 2013, I interviewed current lab
employee, Bill LOZNYCKY regarding BROWN. He
stated he recalled working in the lab with BROWN. He
recalled
BROWN’S
nickname
was
‘Kinky’.
LOZNYCKY said he knew BROWN was from the New
Mexico area. He too recalled BROWN’S reputation as
being a regular patron of the local strip clubs. He stated
BROWN bragged to him many times about his visits.
LOZNYCKY said he knew BROWN to be into
pornography, but nothing illegal. LOZNYCKY stated
he remembered when BROWN spoke of a raid
conducted by Vice at a local club, but could not provide
details. He stated BROWN could have only been
boasting about the event. LOZNYCKY said BROWN
often talked about wanting to do nude photography, but
never knew if BROWN ever pursued it.
On March 13, 2013, I interviewed retired Police
Detective Joe LEHR about BROWN because LEHR
was assigned to the Vice Unit in the 1980’s. LEHR
stated he never knew of a raid where any police
employee was contacted at photo:shoots involving
strippers. He did however recall being approached once
about BROWN by an attractive Asian female San
Diego Police Department Records employee who was in
her mid-twenties. She came to LEHR and told him
BROWN had asked if she would be willing to pose for
nude photographs. She refused, but told LEHR she
was very uncomfortable with the proposition. LEHR
agreed to ask BROWN to stop approaching her. A few
days later, LEHR saw BROWN in the Police
Headquarters gym. LEHR asked BROWN to stop

75a
approaching female employees and asking to
photograph them. BROWN agreed and LEHR never
again heard about BROWN requesting to photograph
female employees. LEHR did not recall the female
employee’s name and thinks the female no longer works
for the police department.
On October 22, 2013, I interviewed retired lab
employee Annette PEER. PEER was hired in 1982 and
began working in the Serology Unit. She told me she
very much recalled working with BROWN. PEER
stated that during the summer of 1984 she was working
in the lab on lower level cases, but soon after started
working sexual assault cases. At the time, DNA science
was in its infancy and basically the best the crime lab
could do was to identify what type of blood was present.
PEER told me that she and BROWN worked in
the same part of the lab. They had a desk in the area
known as ‘criminalist row.’ It was an open bay area
where everyone working that section of the lab could
see everyone else. PEER said that she was in the same
room as BROWN; however, her workstation was at the
other end of the room. In the center of the room, were
exam tables and each criminalist had their own exam
table assigned. Lab employees were not authorized to
keep copies of crime reports at their work stations.
PEER told me during the summer of 1984
BROWN was not working sexual assault cases. She
recalls this because she was assigned to a three person
rotation working sexual assaults and to the best of her
knowledge BROWN was not assigned to that rotation.
PEER told me as part of their assignment lab
analysts reviewed the crime reports that coincided with
the lab work requested by the detectives. Reviewing
the report better prepares the analyst for the type of
work to be done and how best conduct their testing.

76a
PEER describes crime reports completed by police
officers were at the time sometimes written with a bit
of humor laced in the narrative. She did not know if the
writings were meant to be interpreted as odd or funny
or if it just sounded that way to the reader. When a
narrative seemed odd or humorous to the lab employee,
they would read it out loud to the others in lab. PEER
stated she didn’t recall anyone reading out loud any
‘gross cases’ to the group of lab employees.
PEER stated she had a specific event regarding
BROWN that has always stood out in her mind. PEER
recalled a time when she and BROWN were the only
two people in the lab. BROWN called out to PEER and
asked her if she wanted to hear a case. PEER thinking
it was going to be a funny case agreed. BROWN
reached into his desk drawer and pulled out a report
and began reading out loud. PEER said it was a violent
sexual assault case and while listening to the case, was
wondering when the humor was going to come out. As
BROWN read the case out loud, it just kept getting
worse.
PEER recalled the case involved a male suspect
and two female victims. She recalled the male was
armed with some sort of weapon and he forced the
women to another location where he assaulted them.
She stated the armed man forced the women to also
perform sex acts on each other. The male eventually
joined in and sexually assaulted the females.
PEER recalled the story as sounding like a
really bad porn novel. She stated there was nothing
funny about the report and that it was very violent.
PEER said the power the man was displaying over the
women was very clear.
At some point, PEER asked BROWN why he
read that report to her. She said it wasn’t funny at all.

77a
PEER said BROWN became nervous when confronted.
PEER became concerned that BROWN even
saved a report like that in his desk especially became
BROWN was not working sexual assaults at that time
and analysts were not allowed to keep reports at their
desk. PEER surmised BROWN worked the case either
before she was assigned to work sexual assaults or that
he came across the case and saved a copy for himself.
PEER said reports were kept in a central filing system
not at an analyst’s desk. PEER stated a report like the
one he read to her that day would have never been read
out loud to the lab group as a whole. PEER, stated:
after that day she viewed BROWN as “creepy” and she
was not comfortable around him. PEER said she felt
like he waited for her to be alone for the opportunity to
read her the report.
PEER told me she recalled, around the time the
lab started moving into the new headquarters building
located at 1401 Broadway, an incident in which
BROWN brought a pornographic movie to work.
According to PEER, BROWN invited several of the
male lab employees into the mezzanine area of the old
headquarters building to watch the movie. PEER told
me she recalled Bill LOZNYCKY was one of the lab
employees who saw the movie. She further stated
LOZNYCKY commented that the movie was sick and
was beyond a normal pornographic movie. On
November 19, 2013, I asked LOZNYCKY about
watching this movie. LOZNYCKY stated he did not
watch a pornographic movie with BROWN at work and
denied knowing anything about it.
PEER stated she recalled another incident that
occurred sometime after 1986, where BROWN was
busted by the Vice Unit for taking nude photographs.
PEER said the rumor was all over the lab, but she

78a
wasn’t sure what, if anything was done by supervision.
PEER said she recalled a time when BROWN
was pulled of doing casework in the Serology Unit.
PEER said she didn’t know if it was because of his
reputation or poor work performance. PEER believed
BROWN left the department by the choice either
quitting or being terminated.
According to PEER the lab started doing DNA
casework in 1992. PEER and O’DONNELL were the
originating members of the newly formed DNA division
of the lab. Several years later, the lab started collecting
lab employees DNA swabs and placing them in the local
CODIS database in order to deal with cross
contamination issues.
PEER mentioned a friend of hers, Debbie
BURGER, a retired San Diego Police Detective, saw
BROWN walk out of the F Street Bookstore. BROWN
was walking out of the book store during normal
working hours, dressed in a suit, holding a briefcase,
and his zipper was down. PEER said BURGER made a
comment to BROWN and he seemed flustered at being
seen. PEER directed me to contact BURGER to get
the story first hand.
On October 25, 2013, I met with retired Police
Detective Debbie BURGER. I met her in the Homicide
Unit office to conduct my interview.
BURGER stated she started working for the
San Diego Police Department’s Crime Lab in February
of 1989. She was a Crime Scene Specialist and worked
around BROWN during that time. She recalled
BROWN as someone that would ‘lurk around’ the
Crime Scene Specialist area, an area he was not
assigned to work. She said he would just quietly come
in and next thing you knew he was standing over you.
BURGER said she was never comfortable around him

79a
and she tried to avoid him. BURGER stated she heard
of his reputation, but had no firsthand knowledge.
In November of 1994, BURGER began working
as a sworn Police Officer for the San Diego Police
Department. In 1997, she was assigned to Central
Division. Her assigned patrol area was the downtown
area The patrol division was eventually relocated out of
police headquarters into the new Central Division
station in 1998/1999. While assigned to the patrol
division, BURGER was required to wear a San Diego
Police Officer uniform and drive a marked San Diego
Police vehicle.
During this time, BURGER was assigned to
work the downtown area of San Diego and worked with
a P.E.R.T. Clinician (Psychiatric Evaluation Response
Team). BURGER recalled being parked near the
entrance of the F Street Adult Bookstore, either
writing a report or working on her computer inside her
marked patrol car. She looked up toward the entrance
of the bookstore and saw BROWN walking out of the
front door. She noticed BROWN dressed in a suit and
holding a briefcase. She recalled it was near the lunch
hour. BURGER stated she quickly noticed BROWN’S
pants zipper was down. BURGER called out to
BROWN and asked what he was doing. BROWN stated
he was on his way back to work from court. BURGER
stated BROWN looked embarrassed and red-faced.
BURGER never said anything to BROWN about his
zipper being down. This concluded my interview of
BURGER.
MEDIA COVERAGE
The murder of Claire BOUGH often been
compared in the news media to the murder of 15 year

80a
old Barbara NANTAIS. NANTAIS was murdered on
August 13, 1978 at Torrey Pines State Beach near
lifeguard tower #7. Similarly to the HOUGH murder,
NANTAIS was a teenager who was visiting San Diego,
she was found nude, strangled, beaten and her breast
was mutilated (her nipple on her right breast was
nearly completely removed). NANTAIS was sexually
assaulted and her cause of death was strangulation. In
the NANTAIS case, her boyfriend, James ALT, was on
the beach with her at the time of the murder. He
sustained significant life threatening injuries to his
head. ALT survived his injuries, but has no memory of
what happened to cause Barbara’s death. ALT is a
vocal advocate of Barbara’s, frequently giving
interviews to various news stations in the hope it will
generate a new lead and identify who killed Barbara.
The similarities in both cases, as well as the
vocalization of James ALT, continues to draw attention
in the local and national news media. I conducted online
searches regarding the murder of Barbara NANTAIS.
I watched a Channel 7/39 San Diego news video dated
May 2013 regarding the murder of Barbara NANTAIS.
The Channel 7/39 San Diego new story included the
similarities in the Claire HOUGH murder. The story
suggested the cases may have been perpetrated by the
same individual.
During my online search I found a February
2013 story in The Huffington Post titled “Barbara
Nantais and Claire Hough Cold Cases Reopened with
San Diego Police Ordering DNA Tests.” Attached to
the story on the website, is a video from a local San
Diego KFMB news personality in which James ALT is
interviewed about the murder of Barbara NANTAIS.
The news personality references the Claire HOUGH
murder and states the cases “may or may not be

81a
related.”
I located an online video titled “San Diego’s Most
Wanted The FBI Files” dated August 25, 2012. This
video references the NANTAIS case and the Claire
HOUGH case stating they “may or may not” be related.
James ALT gives an interview in which he gives his
opinion that the cases are related. To date there is no
definitive evidence linking these cases.
On November 23, 2013, I “Google searched”
“Barbara Nantais.” I noticed immediately that both
Barbara NANTAIS’S photo and Claire HOUGH’S
photo appears. There were numerous media related
articles regarding both murders.
CONFIRMATION
CONFIRMATION OF BROWN’S RESIDENCE
AND VEHICLES
I conducted records inquiries into Kevin
BROWN. His California Driver’s License lists his home
address as 263 Vista Del Mar Court, Chula Vista,
California as of February 13, 2010. BROWN’S
California Drivers License lists him as male, brown
hair, brown eyes, 6 feet 4 inches in height and 198
pounds. I conducted a driver’s license inquiry and
obtained his California Driver’s License photo dated
September 13, 2005. I conducted a Department of
Motor Vehicles inquiry and learned BROWN has two
vehicles registered to him: a 2011 Ford pickup truck,
California License Plate 10925B1 and a 2008 Honda
Civic, California License Plate 6ELE632.
I also conducted records inquiries on Rebecca
BROWN, Kevin BROWN’S wife. I conducted a driver’s
license inquiry and learned her driver’s license number
is E0703571 and I also obtained her driver’s license
photo dated February 15, 2006.

82a
Over the last two weeks I requested the
assistance of undercover San Diego Police Detectives to
conduct a surveillance of BROWN’s home and vehicles.
The purpose was to confirm BROWN is maintaining
the Chula Vista home as his residence and to confirm
the vehicles he currently drives.
I provided California Driver’s License
photographs of Kevin Brown and Rebecca BROWN
along with their home address (previously listed) and
vehicle information (previously listed) to Detectives H.
HOYTE, #4745, D. GLAZEWSKI, #4596 and M.
ESTRELLA,
#5109
Detectives
HOYTE,
GLAZEWSKI and ESTRELLA informed me in a
reports dated November 6th and 7th, 2013, that they
have observed Kevin BROWN and his wife Rebecca
BROWN, come and go from the Chula Vista home on
multiple occasions.
Two vehicles have been observed as being at the
home on a regular basis. A silver Honda Civic,
California License Number 6ELE632 and a black Ford
pickup truck, California License Number 10925B1. Both
vehicles are currently registered to Kevin and Rebecca
BROWN. Additionally, surveillance teams have seen
Kevin BROWN driving the black pickup truck on
several occasions. Detective Martha GASCA, #5584,
also observed BROWN driving the Ford pickup truck
during her surveillance of BROWN’S residence.
MEDICAL EXAMINER’S AUTOPSY
INTERPRETATION AND OPINIONS
On December 11, 2013, I along with other
members of the San Diego Police Department
Homicide/Cold Case Team met with Doctor Glen
WAGNER, the Chief Medical Examiner of the County

83a
of San Diego. The meeting with Doctor WAGNER was
conducted in a conference room inside the Medical
Examiner’s Office building, located at 5570 Overland
Avenue, San Diego.
The purpose of the meeting was to solicit the
expertise of Dr. WAGNER with the interpretation of a
portion of the Autopsy Report, specifically the
Toxicology Report Section, dated September 18, 1984.
During the autopsy vaginal swabs were collected and
examined by the M.E.’s Office. These swabs were
separate from the swab collected and examined by the
San Diego Police Department.
The Toxicology Report indicates the acid
phosphatase present on the vaginal swab collected were
37 in I.U. (International Units). Acid phosphatase is an
enzyme present in seminal fluid and sperm and is also
present in other fluid sources in both men and women.
Dr. WAGNER stated he was ‘reasonably certain’ that
the acid phosphatase present was from a male
individual. He also stated that add phosphatase
markers lower than SO m I.U. is unreliable.
Dr. WAGNER indicated the low level of add
phosphatase could be from pre-ejaculation or an
incomplete ejaculation. He further stated there are
known sexual assault cases documented, where the
male suspect fully ejaculated inside the female victim
and the acid phosphatase numbers were still low at the
time of collection. Dr. WAGNER went on to say that
acid phosphatase testing is no longer conducted because
of the advancements in DNA technology which is
considered more accurate and reliable.
Dr. WAGNER further stated there is nothing to
dispute that the sex between BROWN and HOUGH
could have occurred at the time of HOUGH’S death and
that according to the totality of the case, BROWN

84a
cannot be excluded as a suspect in HOUGH’S;:murder.
OPINIONS AND CONCLUSIONS
Since there are no identified eyewitnesses to the
murder of Claire HOUGH the investigation focused on
the available evidence. DNA from three (3) males was
identified on items of evidence: two (2) on Claire
HOUGH’S clothing and one (1) one on the vaginal
swabs taken at autopsy. The two males on her clothing
are Ronald TATRO and MARK WILKENSON and
both are deceased.
MARK WILKINSON
Mark WILKINSON’S DNA was found only on
the crotch area of Claire HOUGH’S panties underneath
a panty liner. It is important to note WILKENSON’S
DNA was NOT found on the panty liner nor was it
found
on
her
vaginal
swabs.
Additionally,
WILKENSON was not known to be in San Diego at the
time of Claire HOUGH’S murder. According to San
Diego Police Criminalist CORNNACHIA, the level of
DNA found was minimal and the DNA could have been
deposited on the panties for some time and even
survived being washed. It is my opinion that the DNA
of WILKENSON was most likely deposited before
Claire HOUGH came to San Diego.
SUSPECT: RONALD TATRO
HOUGH’S “Levi’s” jeans were tom from the
bottom of the zipper to the crotch seam indicating the
jeans were forcefully removed. TATRO’S DNA was
found on her “Levi’s” jeans near the zipper flap.

85a
TATRO’S DNA also was found on the outside of
Claire’s pants from blood stains. A thorough
investigation revealed TATRO was on parole for rape
at the time of Claire HOUGH’S murder. Records from
1984 on TATRO existed in his sex registrant file with
the San Diego Police Department and in the 1984
unsolved homicide of Carole Defliece, During the
Defliece case, TATRO was investigated as a potential
suspect (he was never charged and at this point no
evidence suggests he is responsible). San Diego Police
Detectives conducted a 4th waiver search of his home
and van on September 7, 1984, two weeks after Claire
HOUGH was murdered. During that search, they took
lineup quality photos, which I used to show JAMER.
During my subsequent investigation into
TATRO, Detective ADAMS obtained records from the
La Mesa, California case for which TATRO was
convicted of attempted rape. In a September 16, 1985,
Probation Report, written by Probation Officer Jane
CHIANESE, TATRO admitted to utilizing the services
of prostitutes.
Based on TATRO’S blood being present on
Claire’s pants, the fact a sharp object was used to sever
her breast, TATRO’S violent history against women
and his DNA (Blood) being present on the tom portion
near the crotch area of her jeans indicating they were
forcibly removed, I believe TATRO was present during
the murder of Claire HOUGH. Ronald TATRO is now
deceased and to my knowledge he was never
interviewed regarding his involvement in this case.
SUSPECT: KEVIN BROWN
During the autopsy swabs were taken from
HOUGH’S vagina. Kevin BROWN’S DNA was found

86a
on those swabs. The DNA found was in the form of
sperm. This indicates Kevin BROWN had sexual
intercourse with 14 year old Claire HOUGH.
Kevin BROWN’S DNA was NOT found on
Claire HOUGH’S panty liner, in fact the only DNA on
the panty liner was Claire HOUGH’S, This would
indicate that Claire HOUGH did not become vertical
after the sexual intercourse with BROWN because, if
she did, there would most likely be spillage from the
seminal fluid from inside her vagina onto the panty
liner.
According to Clair HOUGH’S best friend,
JAMER, Claire HOUGH was faithful to her boyfriend
and it would have not been her character to
consensually have sex with someone other than him,
Additionally, she stated Claire HOUGH was not
attracted to older men and would never have had
consensual sex with an older man. Also, the photograph
of BROWN presented to JAMER was a photocopy of
BROWN’S San Diego Police Department Identification
photo around the timeframe of the murder. JAMER
stated she never saw the man in the photograph while
in San Diego and went on to say HOUGH would have
never been attracted to a man that age.
JAMER stated Claire HOUGH would not have
consensual sex with someone she had just recently met,
JAMER told me when she was with Claire HOUGH in
San Diego they did not meet anyone, including males.
JAMER left San Diego three days before Claire
HOUGH was found murdered. After JAMER. left,
HOLLAND, and Claire’s Grandmother told law
enforcement that CLAIRE HOUGH was lonely and
complained she didn’t meet any new friends.
On Thursday, August 23, 1984, the day before
Claire HOUGH was found murdered she spent the day

87a
with her grandparents at the zoo and went to the beach
alone in the evening. After returning home at
approximately 8:30 p.m. she socialized with her
grandparents before going to her room at
approximately 9:00 p.m. There is no indication Claire
HOUGH had a negative experience at the beach or at
another time while in San Diego.
On the Thursday night of her murder Claire
HOUGH was last seen by a Circle K employee between
8:30 p.m. and 9:30 p.m. She purchased cigarettes and
other items. She appeared to be alone and there was no
indication she was under duress or scared.
Based on the above mentioned facts, particularly
the violent manner in which HOUGH’S “Levi” jeans
were torn, indicating they were forcibly removed, and
BROWN’S sperm in her vagina and not on her panty
liner, I believe the sexual intercourse BROWN had
with Claire HOUGH was not consensual and appears to
be contemporaneous to the murder. Furthermore, I
think it is unlikely that HOUGH was raped on either
Tuesday or Wednesday night by BROWN, then walks
alone, in the darkness of night to the beach and is
murdered by TATRO.
I also believe this, in part, because I believe it is
not likely that Claire HOUGH is raped by BROWN and
then on the same night, and in a separate unrelated
incident, is murdered by TATRO.
The murder of Claire HOUGH was a highly
publicized murder in San Diego. It was in the
newspapers and in the nightly television news reports.
Included in the various news coverages, were
photographs of Claire HOUGH and video of the crime
scene. The news coverage continued throughout the 29
years this case has been unsolved including print, news
broadcasts, and online coverage. In those 29 years,

88a
there is no indication that Kevin BROWN came
forward to advise the police department that he knew
Claire HOUGH, or had sexual intercourse with her.
BROWN’S knowledge of DNA and how it is
used to identify crimes is extensive due to his previous
position in the San Diego Police Crime Lab. I believe he
is following the progress in the Claire HOUGH case,
the progress of the Barbara NANTAIS case via
internet searches, print media. It is also; likely
BROWN is monitoring and keeping up on current DNA
techniques; via on line sources, technical manuals, and
other law enforcement correspondences in order to
prepare for an eventual break in this case.
I submit that the requested blood and/or saliva
samples are clearly necessary for analysis for probable
cause purposes as well as evidentiary purposes. Such
samples may also be used for analysis using more
traditional scientific techniques. Samples taken from
the suspect as described will be compared against that
found on the victim. In removing the blood and other
samples from the suspect, I will use medically accepted
practices, utilize the services of a trained person in
drawing the blood, and use the least amount of force
necessary to collect the described evidence.
The DNA evidence I am seeking can be used to
exclude suspects from the crime as well as help identify
the perpetrator.
Furthermore, my training and experience
indicates persons in control of premises leave evidence
of their identification such as fingerprints and
handwritings,
which
are
subject
to
expert
identification, routinely in the normal course of living
within their premises. Also, clothing, photographs,
canceled mail and the like are routinely maintained in a
person’s premises as necessary and incident to

89a
maintaining such premises. In addition, by answering
phone calls at the premises while the search warrant is
being executed, I expect to talk with persons who are
familiar with the persons in control of the premises and
will so testify. Such callers and described dominion and
control evidence is vital to proving control over the
described property to be seized.
I believe BROWN and TATRO possibly met
while traveling in similar circles. BROWN was open
with fellow lab employees regarding the frequency in
which he patronized the local strip club. It is commonly
known among law enforcement, many times stripper
often engage in prostitution.
In the September 16, 1985, Probation Report,
written by Probation Officer Jane CHIANESE,
TATRO admitted to utilizing the services of
prostitutes.
I believe it is possible BROWN may have kept in
contact with TATRO and may have even kept TATRO
informed of the Police Department’s progress or lack of
progress in this investigation. I believe this information
can be ascertained, via BROWN’S computers, digital
storage media, and cellular devices. I also believe there
may be hand-written records that predate the use of
personal computers and other electronic devices where
this information can also be found. Since Ronald
TATRO died in August of 2011, I believe some of the
contacts between Kevin BROWN and Ronald TATRO
could be stored on older cell phones, computers,
cameras, negatives, film and storage media devices that
are no longer being used.
I believe, based on past practices, BROWN may
still be keeping older, graphic San Diego Police
Department Sexual Assault Crime Case Reports or
even reports relating to this homicide investigation.

90a
SPECIAL MASTER REQUEST
On December 17, 2013, I learned John M,
Blakely, the brother in law of Kevin Brown, is living in
the residence which is the subject of this search
warrant. Mr. Blakely is an attorney and is currently
listing this residence as his place of business with the
State Bar of California. Accordingly, I believe a Special
Master should be appointed by this Court pursuant to
Penal Code Section 1524 (c)(1) to conduct the search of
the residence. I intend to comply with the provisions of
Section 1524(c) and 1524(e) as well as all other laws
during the execution of the search warrant.
SEALING REQUEST
Pursuant to People v. Hobbs (1994) 7 Cal.4th 948,
I respectfully request this affidavit and search warrant
be sealed pending further order of court. Without
sealing, the affidavit and search warrant will become a
matter of public record within ten days (Penal Code
section 1534(a)). The sealing requested herein,
however, is not based on denying discovery to the
defendants when and if they are charged, but is being
requested to merely prohibit public disclosure which
could surely undermine the continuing investigation
herein. Much of the information that is contained in this
affidavit has not been made public and has not been
made available to the media. Putting this information
out in the public domain, will jeopardize the
investigation by advising the public of the information
being sought. Doing so could cause the suspect to
dispose of evidence that he is otherwise keeping while
under the belief that he is not under suspicion.
Additionally, should BROWN not be charged at the

91a
conclusion of this investigation and this information be
released to the public, his reputation could be
permanently damaged. There is no other way, but for
sealing the entire affidavit and search warrant, to
ensure that all the information regarding the
investigation remain private.
Therefore, based on my training and experience
and the above facts, I believe that I have substantial
cause to believe the above described property, or a
portion thereof, will be at the above described premises
when the warrant is served.
Based on the aforementioned information and
investigation, I believe that grounds for the issuance of
a search warrant exist as set forth in Penal Code 1524.
I the affiant, hereby pray that a search warrant
be issued for the seizure of said property, or any part
thereof, from said premise, good cause being shown
therefore, and that the same be brought before this
magistrate or retained subject to the order of this
Court. Additionally, 1 also request any receipt and
inventory of evidence taken by the Special Master
which may belong to John M. Blakely, be delivered to
the Court pursuant to Penal Code Section 1524(c)(2),
and the evidence seized pursuant to the warrant be
sealed by the Special Master and held by me and/or any
other designated peace officer subject to further order
of Court pursuant to Penal Code Section 1536.
This affidavit has been reviewed for legal
sufficiency by Deputy District Attorney Andrea
FRESHWATER.
Given under my hand and dated this 3rd day of
January, 2014.
_________________________
Michael Lambert – Affiant

92a
Subscribed and sworn to before me
this ___ day of January, 2014,
at _______________ a.m./p.m.

_____________________________
Judge of the Superior Court

93a
IN THE SUPERIOR COURT OF THE STATE OF
CALIFORNIA,
COUNTY OF SAN DIEGO

STATE OF
CALIFORNIA,)

ORDER TO SEAL
AFFIDAVIT AND
SEARCH WARRANT
(ss.

COUNTY OF SAN
DIEGO)

I have read and considered the AFFIDAVIT
FOR SEARCH WARRANT.
Pursuant to California Rules of Court 2.550(d), the
court expressly finds that
1. There exists an overriding interest that
overcomes the right of public access to the
record;
2. The overriding interest supports sealing the
record;
3. A substantial probability exists that the
overriding interest will be prejudiced if the
record is not sealed;
4. The proposed sealing is narrowly tailored; and
5. No less restrictive means exists to achieve the
overriding interest.
GOOD CAUSE appearing therefore, IT IS
HEREBY ORDERED that the AFFIDAVIT AND
SEARCH WARRANT be sealed pending further
order of court

94a
DATED:
DATED _______________.

_________________________
Judge of the Superior Court

95a
IN THE SUPERIOR COURT OF CALIFORNIA,
COUNTY OF SAN DIEGO

STATE OF
CALIFORNIA,)

AFFIDAVIT FOR
UNSEALING
SEARCH WARRANT
(ss.
No. 45973

COUNTY OF SAN
DIEGO)

I, Paul Rorrison, ID# 4305, do on oath, say the
following on this 31st day of October, 2014: that I am a
peace officer employed by the San Diego Police
Department (SDPD).
I am assigned as lieutenant for the Cold Case
Homicide Unit. As such, I am familiar with the
investigation into the murder of Claire Hough. As part
of the investigation, on January 3rd, 2014 a new
warrant was obtained to search the premises located at
263 Vista Del Mar Court, Chula Vista, California.
(Warrant number 45973) This warrant included the
provision for the appointment of a special master.
At that time, reasons existed to request the
warrant be sealed pending further court order. That
request was granted. The reasons for sealing the
warrant no longer exist and your affiant is requesting
the warrant be unsealed at this time.
I declare under the penalty of perjury that the
foregoing is true. Executed in San Diego County,
California, on this 31st day of October, 2014

96a
_________________________
Paul Rorrison, #4305

97a
IN THE SUPERIOR COURT OF THE STATE OF
CALIFORNIA
COUNTY OF SAN DIEGO
STATE OF
CALIFORNIA,)

ORDER TO UNSEAL
AFFIDAVIT FOR
(ss. SEARCH WARRANT
45973

COUNTY OF SAN
DIEGO)

I have read and considered the AFFIDAVIT
FOR UNSEALING OF SEARCH WARRANT 45973.
Pursuant to California Rules of Court 241.1 (d), the
court expressly finds that:
1.
There no longer exists an overriding interest
that overcomes the right of public access to the record.
GOOD CAUSE appearing therefore, IT IS
HEREBY ORDERED that the AFFIDAVIT be
unsealed.
DATED ______________.

_________________________
Judge of the Superior Court

